<html>
<title> - H.R. 2109, H.R. 2748, H.R. 3421, AND H.R. 3425</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




 
            H.R. 2109, H.R. 2748, H.R. 3421, AND H.R. 3425

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           December 13, 2001

                               __________

                           Serial No. 107-80

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

83-959              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
 Joel Hefley, Colorado                   Samoa
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                James P. McGovern, Massachusetts
Chris Cannon, Utah                   Anibal Acevedo-Vila, Puerto Rico
Bob Schaffer, Colorado               Hilda L. Solis, California
Jim Gibbons, Nevada                  Betty McCollum, Minnesota
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on December 13, 2001................................     1

Statement of Members:
    Christensen, Hon. Donna M., a Delegate to Congress from the 
      U.S. Virgin Islands........................................     3
    Dreier, Hon. David, a Representative in Congress from the 
      State of California........................................     4
        Prepared statement on H.R. 2748..........................     6
    Hastings, Hon. Alcee, a Representative in Congress from the 
      State of Florida...........................................    11
        Prepared statement on H.R. 2109..........................    12
    Meek,, Hon. Carrie P., a Representative in Congress from the 
      State of Florida...........................................     7
        Prepared statement on H.R. 2109..........................     9
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement of....................................     2
    Ros-Lehtinen, Ileana, a Representative in Congress from the 
      State of Florida, Statement submitted for the record.......     7

Statement of Witnesses:
    Barile, Vincent L., Deputy Under Secretary for Management, 
      National Cemetery Administration, Central Office, 
      Department of Veterans Affairs, Washington, D.C............    15
        Prepared statement on H.R. 2748..........................    16
        Letter submitted for the record..........................    48
    Kelly, Kevin, Member, Mariposa County School Board, Mariposa, 
      California.................................................   036
        Prepared statement on H.R. 3421..........................    27
    Mihalic, David, Superintendent, Yosemite National Park, 
      National Park Service, U.S. Department of the Interior, 
      Yosemite, California.......................................    22
        Prepared statement on H.R. 2109..........................    23
        Prepared statement on H.R. 3421..........................    26
        Prepared statement on H.R. 3425..........................    28
    Rooney, Brian, President, RVETS (Remembering Veterans Who 
      Earned Their Stripes), Northridge, California..............    39
        Prepared statement on H.R. 2748..........................    40
    Stauffer, Max, President of the Board of Trustees, Bass Lake 
      Joint Union Elementary School District, Fish Camp, 
      California.................................................    33
        Prepared statement on H.R. 3421..........................    34


  LEGISLATIVE HEARING ON H.R. 2109, TO AUTHORIZE THE SECRETARY OF THE 
  INTERIOR TO CONDUCT A SPECIAL RESOURCE STUDY OF VIRGINIA KEY BEACH, 
FLORIDA, FOR POSSIBLE INCLUSION IN THE NATIONAL PARK SYSTEM; H.R. 2748, 
 TO AUTHORIZE THE ESTABLISHMENT OF A NATIONAL DATABASE FOR PURPOSES OF 
IDENTIFYING, LOCATING, AND CATALOGING THE MANY MEMORIALS AND PERMANENT 
 TRIBUTES TO AMERICA'S VETERANS; H.R. 3421, TO PROVIDE ADEQUATE SCHOOL 
 FACILITIES WITHIN YOSEMITE NATIONAL PARK, AND FOR OTHER PURPOSES; AND 
    H.R. 3425, TO DIRECT THE SECRETARY OF THE INTERIOR TO STUDY THE 
 SUITABILITY AND FEASIBILITY OF ESTABLISHING HIGHWAY 49 IN CALIFORNIA, 
KNOWN AS THE ``GOLDEN CHAIN HIGHWAY,'' AS A NATIONAL HERITAGE CORRIDOR.

                              ----------                              


                      Thursday, December 13, 2001

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:15 a.m., in 
room 1324, Longworth House Office Building, Hon. George 
Radanovich [Chairman of the Subcommittee] presiding.

   STATEMENT OF HON. GEORGE RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Good morning. I apologize. For some reason, 
I had this down as 10:30. Please forgive me for being late to 
my own hearing. There are a lot of important people here and I 
apologize. So with that, I will just get going.
    The Subcommittee on National Parks, Recreation and Public 
Lands will come to order. Today, the Subcommittee on National 
Parks, Recreation and Public Lands will hear testimony on four 
bills, H.R. 2109, H.R. 2748, H.R. 3421, and H.R. 3425.
    The first bill, H.R. 2109, introduced by Congresswoman 
Carrie Meek, would authorize the Secretary of Interior to 
conduct a study on suitability and feasibility of designing a 
77-acre Virginia Key Beach in Florida as a unit of the National 
Park System. From the late 1940's to the late 1960's, Virginia 
Key Beach was the only beach African Americans were permitted 
in Dade County, Florida.
    Carrie, it is good to see you here today, and glad you are 
feeling better.
    Mrs. Meek. Thank you.
    Mr. Radanovich. You are looking well.
    Our second bill is H.R. 2748, introduced by Congressman 
David Dreier, and it would authorize the establishment of a 
national data base for purposes of identifying, locating, and 
cataloging the many memorials and permanent tributes to 
American veterans.
    The third bill is H.R. 3421, which I introduced and would 
authorize the Secretary of Interior to provide supplemental 
funding and other services and facilities necessary to assist 
the State of California or local school districts in providing 
educational services for students attending the three schools 
located in Yosemite National Park. I would like to thank Kevin 
Kelly from Mariposa and Max Stauffer from Fish Camp for coming 
across the country to testify in support of the bill. I would 
also like to mention that I plan to continue to work with 
members of the Interior Appropriations Subcommittee regarding 
their concerns over the use of recreation fee demonstration 
program funds in the bill.
    Our final bill is H.R. 3425, which I also introduced and 
would direct the Secretary of the Interior to study the 
suitability and feasibility of establishing Highway 49 in 
California, known as the ``Golden Chain Highway,'' as a 
National Heritage Corridor. Highway 49 transverses nine 
counties along the Western slopes of the Sierra Nevada 
Mountains and remains rich in the history of the 1849 gold 
rush. The proposed corridor would run from the city of Oakhurst 
in Madera County to the city of Vinton in Sierra County.
    At this time, I would like to ask unanimous consent that 
Congresswoman Meek and Congressman Dreier be permitted to sit 
on the dias following the statements, Congressman Hastings, if 
you wish, as well. If there is no objection, so ordered.
    [The statement of Mr. Radanovich follows:]

Statement of Hon. George Radanovich, a Representative in Congress form 
                        the State of California

    Good morning and welcome to the hearing today. The Subcommittee 
will come to order. Today, the Subcommittee on National Parks, 
Recreation, and Public Lands will hear testimony on four bills--H.R. 
2109, H.R. 2748, H.R. 3421, and H.R. 3425.
    The first bill, H.R. 2109, introduced by Congresswoman Carrie Meek, 
would authorize the Secretary of Interior to conduct a study on the 
suitability and feasibility of designating the 77-acre Virginia Key 
Beach in Florida, as a unit of the National Park System. From the late 
1940's to the late 1960's, Virginia Key Beach was the only beach 
African Americans were permitted in Dade County, Florida. Carrie it is 
good to see you here today. I hope you are feeling better.
    Our second bill, H.R. 2748, introduced by Congressman David Drier, 
would authorize the establishment of a national database for purposes 
of identifying, locating, and cataloging the many memorials and 
permanent tributes to America's veterans.
    The third bill, H.R. 3421, which I introduced, would authorize the 
Secretary of Interior to provide supplemental funding and other 
services and facilities necessary to assist the State of California or 
local schools districts in providing educational services for students 
attending the three schools located within Yosemite National Park. I 
would like to thank Kevin Kelly from Mariposa and Max Stauffer from 
Fish Camp for coming across the country to testify in support of the 
bill. I would also like to mention that I plan to continue to work with 
Members of the Interior Appropriation Subcommittee regarding their 
concerns over the use of Recreation Fee Demonstration Program funds in 
the bill.
    Our final bill, H.R. 3425, which I also introduced, would direct 
the Secretary of Interior to study the suitability and feasability of 
establishing Highway 49 in California, known as the ``Golden Chain 
Highway'' as a National Heritage Corridor. Highway 49 transverses nine 
counties along the western slopes of the Sierra Nevada Mountains and 
remains rich in the history of the 1849 Gold Rush. The proposed 
corridor would run from the city of Oakhurst in Madera County to the 
city of Vinton in Sierra County.
    I would like to thank all of our witnesses for being here today to 
testify on these bills and now turn the time over to Mrs. Christensen.
                                 ______
                                 
    Mr. Radanovich. I would like to thank all of the witnesses 
for being here today to testify on these bills and now turn my 
time over to Mrs. Christensen.

STATEMENT OF HON. DONNA M. CHRISTENSEN, A DELEGATE IN CONGRESS 
                    FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman. I, too, want to 
welcome all of our speakers here, panelists this morning, 
particularly our colleagues who are seated at the table.
    As you said, we are going to take testimony on four 
unrelated bills this morning. The first bill, H.R. 2109, was 
introduced by our friend Carrie Meek and our colleague to 
authorize a study by the National Park Service of the Virginia 
Key Beach in Florida. This beach derives its importance from 
history rather than from its natural or recreational qualities, 
because as you pointed out, it was the first beach in South 
Florida to be opened to African Americans, and I believe at 
that time it was the only beach open to African Americans, and 
for many years, it was a popular recreation and meeting place 
for the community. I know Congresswoman Meek and I know 
personally how hard she has worked to get this hearing and we 
are glad we could have it before we go home for the winter 
recess.
    The second bill, H.R. 2748, sponsored by our Rules 
Committee Chair David Dreier, directs the Secretary of Veterans 
Affairs to develop a data base containing information on all 
military memorials in the United States. This legislation 
apparently sprang from one individual citizen's attempt to 
create a comprehensive list of such memorials and we look 
forward to hearing from Mr. Rooney regarding his efforts.
    We support the idea but anticipate that whichever agency is 
ultimately tasked with this project, be it the VA or the 
National Park Service, that they may have some legitimate 
concerns with the mechanics of implementing this idea. 
Hopefully, the hearing today will provide us with information 
that will be helpful to us in pursuing this important goal.
    H.R. 3421, which you introduced last week, Mr. Chairman, 
authorizes the National Park Service to provide funds and 
services to supplement the educational services and facilities 
provided to the children of Yosemite National Park employees 
and the park concessionaire at three small local schools. It 
provides a very unique arrangement for funding schools and we 
are interested in hearing more about the implications of that 
arrangement.
    Finally, H.R. 3425 appears to be a straightforward study to 
determine whether Highway 49 in California would qualify for 
designation as a National Heritage Corridor. This highway runs 
through your district and we look forward to hearing more from 
you and from the panelists who have joined us this morning 
about the history and character of this area.
    So I, too, appreciate the presence of our witnesses and 
look forward to hearing their testimony.
    Mr. Radanovich. Thank you, Mrs. Christensen.
    We will begin with our first member, Congressman Dreier. 
Welcome to the meeting. You are here to discuss H.R. 2748 and 
please begin. Thank you for your patience, all of you.

 STATEMENT OF HON. DAVID DREIER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Dreier. Mr. Chairman, thank you very much. Let me say 
what a great honor it is for me to be before your Subcommittee, 
and I want to congratulate you on assuming the very important 
Chairmanship of this Subcommittee. I know that your district, 
being one of the most spectacular spots on the face of the 
earth, which I visited part of, it is almost as nice as some of 
South Florida, but it is a beautiful spot and I know that the 
people of California are very proud to have you in the position 
that you are.
    Having met with people from Yosemite, I am always somewhat 
embarrassed to say that I have never been there before in my 
life. Now, you have extended invitations to me to come and I 
do, after this hearing, look forward to having the opportunity 
to be there.
    Mr. Radanovich. Good.
    Mr. Dreier. Let me also, Mr. Chairman and Mrs. Christensen, 
say that I, just a few weeks ago, went to give a speech in Key 
Biscayne and my dear friend and fellow member of the Rules 
Committee, Mr. Hastings, has just informed me that in the 
process, I went right by Virginia Key and he has told me about 
the important history there. I would like to simply say that 
while I have not heard, and, frankly, will be gone by the time 
they have testimony because I have to go for a meeting with the 
Ambassador from Brazil in just a few minutes, I wholeheartedly 
endorse their effort here and believe that the important 
history of Virginia Key is something that should be recognized.
    Mr. Radanovich. Thank you.
    Mr. Dreier. Let me say that I am very privileged to be 
here, having introduced the legislation that you, Mr. Chairman, 
and Mrs. Christensen mentioned. I introduced it along with my 
California colleague, Mr. Schiff, and I met with constituents 
of mine and heard the story of Brian Rooney, who, as you 
mentioned, we will hear from. I should say also that his sons, 
Noah and Damon, have joined him here and he is very proud of 
them and they of him in this effort that he has put into this 
and he is going to, I am sure, be recounting to the 
Subcommittee his very moving experience in Vietnam which 
motivated him to form the Remembering Veterans Who Earned Their 
Stripes organization. When I heard this story, I was inspired 
to help him expand his data base to a national level.
    I believe that this effort is worthy of our Congressional 
support. Now, Mr. Rooney has already worked at the local and 
State level to pass legislation in California, and 
incidentally, our colleague, Mr. Schiff, when he served in the 
California State Senate, led the charge on this, and they 
established a State registry of veterans' memorials. As I said, 
the legislation passed the California State Legislature last 
year, and the legislation that Mr. Schiff and I have 
introduced, the National War Permanent Tribute Historical Data 
base Act, will expand upon the efforts last year, which 
included House Concurrent Resolution 345. This resolution, 
which expresses the need for a catalog of public memorials, was 
included in Title III of Public Law 106-511, which was signed 
into law on November 13 of last year.
    Mr. Chairman, once completed, this data base will provide 
our nation with an excellent educational resource for future 
generations to learn about the contributions from the members 
of our armed forces. We all as a nation know that we today are 
at war and have seen the tremendous sacrifice of many. At this 
moment, the President has just been in the Rose Garden talking 
about the 1972 ABM Treaty and our move away from there. We know 
that national security is a top priority, and recognizing those 
who have fought on behalf of our freedom is a very important 
thing for us to do. I think that the proposal that we have 
offered here is a reminder of the sacrifice that so many people 
have made on behalf of our country.
    Mr. Rooney has also attended numerous veterans' events in 
order to provide information on his efforts. Veterans' groups 
throughout the country, including the Los Angeles County 
Veterans' Advisory Commission and the Minority Officers 
Association, have strongly endorsed the idea of a national data 
base, and I should say Mr. Rooney is also in constant contact 
with the Department of Veterans' Affairs and has received 
important feedback on his ideas there. I should add 
parenthetically that I have had the opportunity to discuss with 
Secretary Principi, our fellow Californian, this important 
issue, as well.
    I want to voice my support for transferring authority to 
the data base from the Secretary of Veterans' Affairs to the 
Secretary of the Interior, because I understand there are some 
concerns that the Veterans' Affairs Department has with this. 
Those were not voiced to me directly from the conversation I 
had with Secretary Principi, but I understand that that has 
come forward recently.
    With more than 20 battlefields, including many of the major 
Civil War sites, currently under National Park Service 
jurisdiction, it does seem to me, Mr. Chairman, that it would 
be a natural that this agency has the resources necessary to 
effectively oversee a war memorial data base.
    I will say that I look forward to working with you, Mr. 
Chairman, your very able staff here who was extraordinarily 
attentive when we came in, telling me that we would start 
promptly at ten o'clock--
    [Laughter.]
    Mr. Dreier. --and I will say that we do appreciate your 
support. Let me just again commend my colleagues who are here 
at the table with me. I want to encourage you to be just as 
attentive to their testimony as you have been to mine. Thank 
you very much, Mr. Chairman.
    Mr. Radanovich. Thank you, Chairman Dreier. I appreciate 
the input and look forward to moving the bill along.
    Mr. Dreier. If there are any questions, I am happy to 
respond.
    Mr. Radanovich. Are there any questions?
    [No response.]
    Mr. Radanovich. Thank you very much.
    Mr. Dreier. Thank you very much. I appreciate it.
    [The prepared statement of Mr. Dreier follows:]

 Statement of Hon. David Dreier, a Representative in Congress form the 
                          State of California

    Good morning, Chairman Radanovich and members of the Subcommittee. 
I want to take this opportunity to thank you all for taking the time to 
hold this hearing on H.R. 2748, the National War Permanent Tribute 
Historical Database Act. As you know, I introduced this legislation 
along with my California colleague, Congressman Adam Schiff. After 
meeting with a constituent of mine and hearing the story of Brian 
Rooney's moving experience in Vietnam, which motivated him to form 
RVETS, the ``Remembering Veterans Who Earn Their Stripes'' 
organization, I was inspired to try and help him expand his database to 
a national level. I believe that this effort is worthy of Congressional 
support. Mr. Rooney has already worked at the local and state level to 
pass legislation in California to require a state registry of veterans 
memorials. This legislation passed the California State Legislature 
last year. My legislation, H.R. 2748, the National War Permanent 
Tribute Historical Database Act, will expand upon my efforts last year 
which included House Concurrent Resolution 345. This resolution, which 
expresses the need for a catalogue of public memorials, was included in 
Title III of Public Law 106-511 which was signed into law on November 
13, 2000.
    Once completed, this database will provide our nation with an 
excellent educational resource for future generations to learn about 
the contributions from the members of our armed forces. It will also 
serve as another reminder of the sacrifice so many people gave to 
defend our country and its democratic ideals. Mr. Rooney has also 
attended numerous veterans events in order to provide information on 
his efforts. Veterans groups throughout the country, including the Los 
Angeles County Veterans Advisory Commission and the Minority Officers 
Association, Inc., have strongly endorsed the idea of a national 
database. Mr. Rooney is also in constant contact with the Department of 
Veterans Affairs and has received important feedback on his ideas.
    In addition, I want to voice my support for transferring authority 
of the database from the Secretary of Veterans Affairs to the Secretary 
of the Interior. With more than 20 battlefields, including many of the 
major Civil War sites, currently under National Park Service 
jurisdiction, I believe that this agency has the resources necessary to 
effectively oversee a war memorial database.
    I look forward to working with this Subcommittee, as well as the 
full Resources Committee, to see that H.R. 2748 receives the 
consideration it deserves. Thank you for your time.
                                 ______
                                 
    Mr. Radanovich. The next person to testify, Carrie, it is 
good to see you here and glad you are doing better. I have to 
tell you, we have a new name for this bill. We think it should 
be the ``Carrie Meek's Back to Old Virginny Key Beach Bill.''
    [Laughter.]
    Mr. Radanovich. That is a little bit of Subcommittee staff 
humor I thought I would pass along to you, but it is such an 
honor to have you here with us. Please take the time to explain 
the proposal and begin whenever you are ready.

  STATEMENT OF HON. CARRIE MEEK, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mrs. Meek. I thank you, Mr. Chairman, and thank your 
ranking member and the members of this distinguished Committee 
for holding this hearing. I was very, very worried about this 
hearing happening this session, so I am so glad and thankful 
that you brought it to the Committee.
    Holding this hearing is very significant, Mr. Chairman, in 
that this Virginia Key Beach is not only of historical 
significance, but it is also of cultural as well as 
environmental significance, and it shows that all the way back 
to the early part of the history of Virginia Key that the 
county and the city saw the significance of this in that, at 
that time, the beaches were fully segregated and it was 
impossible for African Americans to be admitted to any beach, 
God-owned beach, in Dade County. So this beach was set aside 
for African Americans. I am not sure they knew how important it 
was at that time in terms of its environmental importance as 
well as other.
    I want to say that I am very pleased to have with me a 
young man from the Rules Committee. I am not intimidated by the 
Chairman nor the ranking member of the Rules Committee being 
with me, but I am so glad they are here.
    I am also submitting for the record a statement from my 
good friend and supporter, Ileana Ros-Lehtinen, and that has 
been submitted for the record.
    [The prepared statement of Ms. Ros-Lehtinen follows:]

  Statement of Hon. Ileana Ros-Lehtinen, a Representative in Congress 
                       from the State of Florida

    Mr. Chairman, thank you for allowing me to submit a statement on 
behalf of this very important bill for my constituents in South 
Florida.
    H.R. 2109 will authorize the Secretary of the Interior to conduct a 
special resource study of Virginia Key Beach, Florida, for possible 
inclusion in the National Park System.
    Mr. Chairman, Virginia Key is an area rich in history and meaning 
for the people of South Florida. This island, which lies in my 
Congressional district, was once the only beach open to African 
Americans in Miami. Due to the ``whites-only'' rule, other beaches in 
the area were closed to African Americans.
    Although Virginia Key was only accessible by boat until the late 
1940s, it was a cherished getaway, a social gathering place, and even a 
sacred site for religious services. The beach, known at the time as 
``Bear's Cut'', enjoyed immense popularity among the African American 
population, and at the end of the 1950s, newly arrived Cubans found 
that Virginia Key Beach was the one that they preferred.
    Virginia Key is a 1,000-acre barrier island with a unique and 
sensitive natural environment, it is non-residential, and it is largely 
in its natural state, home to ponds and waterways, a tropical hardwood 
hammock, and a large wildlife conservation area.
    Mr. Chairman, Virginia Key Beach is rich both in history and in 
natural beauty. This area is ideal for consideration to be included in 
our National Park System and would indeed be a splendid addition.
    Mr. Chairman, I strongly support this bill and I urge the Committee 
to approve it as quickly as possible and bring it to the floor for 
consideration.
                                 ______
                                 
    Mrs. Meek. This is a beach, Mr. Chairman, that you will 
find is being preserved and it is well worth inclusion in the 
National Park System. It offers the contributions which I have 
mentioned, historical, cultural, and environmental. I have 
given each member of the Committee a copy of this booklet, 
which is a very good compilation to show the history and the 
cultural and the environmental significance of Virginia Key 
Beach.
    [The information on Virginia Key Beach Park follows:]
    [The booklet, ``The Future Development of Historic Virginia 
Key Beach Park,'' has been retained in the Committee's official 
files.]
    Mrs. Meek. You will note that it is comparable to any of 
the other units that are included in the National Park Service.
    I would like to just take a personal reference, Chairman, 
to say to you, many years ago, as they say in my district, back 
in the day, I was a member of the National Board of Parks and 
Recreation and I have not seen any better unit to be added to 
this system than Virginia Key and I am really hoping that this 
Committee will see the value in this.
    It was the only beach, as I told you, that was created, and 
despite the impediments of segregation and many other things, 
it became a very thriving center for the good of the social and 
cultural aspects of people who live in Dade County. It was used 
for baptisms. It was used for courtships. It was for 
honeymoons, for organizational meetings. And I must say, Mr. 
Chairman, even though I am very young, I did attend Virginia 
Key Beach. I carried my children to Virginia Key Beach. So we 
used the park very frequently. It was the only thing we had.
    It is a national treasure and it stands there as a monument 
to America's journey toward racial equality during that time. 
As a reminder of our national heritage, Virginia Key sort of 
symbolizes the struggle of African Americans in the 20th 
century toward the racial segregation, which at that time was 
so significant in the South.
    Now, I must mention that the National Park Service has very 
few sites of civil rights significance. Of the 385 units that 
are presently in the National Park System, only four have been 
designated to commemorate the civil rights era. This is 
important, Mr. Chairman. Recent studies have shown that there 
is very low participation by African Americans in the National 
Park System. I am not sure why this is so, but I am sure that 
an addition of a park such as this would certainly add to a 
better participation by minorities, particularly African 
Americans, because it does show the civil rights struggle as 
well as a beautiful environmental area.
    In addition to that, any environmentalist who attends and 
looks at this park will know that it is an exceptional national 
resource that is characterized by a unique and sensitive 
natural environment.
    I could go on all day, Chairman Radanovich, about Virginia 
Key Beach. I am going to submit my remarks for the record. But 
it is so important that this Committee realize that if you were 
to carry this bill forward, you would really be carrying 
forward a milestone in the development of the National Park 
System. It is a 1,000-acre barrier island. Although there has 
been some limited development, the island is non-residential 
and includes ponds and waterways, a tropical hardwood hammock, 
and a large wildlife conservation area.
    It is home to more than 25 species of birds during the 
winter. The water is shallow there. It contains numerous grass 
beds that support manatees, young sea turtles, and many 
juvenile fishes.
    Finally, let me note that Virginia Key's excellent location 
and its outstanding accessibility makes it very attractive to 
anyone who would visit that area. Other natural exhibits that 
are there and attractions, such as Everglades National Park, 
Big Cypress and Biscayne National Park, are extraordinary 
resources, but they are not readily accessible as Virginia Key 
Beach. Virginia Key Beach is accessible. There is even a metro 
bus transportation connection near there.
    It occupies, Mr. Chairman, a very important place in the 
hearts of all of us in South Florida. Its value to the Nation 
and to Florida is based not just on its natural beauty, but 
also on its legacy of the ongoing struggle of African Americans 
for equal rights and social justice.
    I am not nearly the civil libertarian as my fellow 
Congressperson is, but I can say to you that this park has 
really shown a significant part of our history and the 
struggles we have had and would ensure that Virginia Key Beach, 
if it is nationally recognized, we are sure that it will be 
preserved and protected for future generations.
    I want to thank you, Mr. Chairman. I want to thank your 
ranking member and each member of this important Committee for 
allowing this hearing. Thank you very much. Pass the bill, Mr. 
Chairman.
    Mr. Radanovich. Thank you, Mrs. Meek.
    [The prepared statement of Mrs. Meek follows:]

Statement of Hon. Carrie P. Meek, a Representative in Congress from the 
                            State of Florida

    Chairman Radanovich, Ranking Member Christensen and distinguished 
members of the Committee, thank you for holding this hearing on my 
bill, H.R. 2109, which would authorize the Secretary of the Interior to 
conduct a special resource study of Virginia Key Beach in Miami, 
Florida, for possible inclusion in the National Park System.
    I would like to enter for the record a statement of support by my 
colleague and friend, Rep. Ileana Ros-Lehtinen who was unable to attend 
this hearing. I am also proud and grateful to the entire South Florida 
delegation for sponsoring my bill.
    I believe that Virginia Key Beach in Miami, FL provides an 
excellent nexus among history, culture, and nature that is similar to 
many other units of the National Park System and in accord with the 
Park System's mission.
    Virginia Key Beach is an historically important and environmentally 
significant place worthy of being preserved and studied for inclusion 
in the National Park System.
    I have given each Member of the Committee a booklet that provides a 
brief history of Virginia Key Beach and outlines some of the efforts 
being made to restore this significantly historic site.
    Mr. Chairman, Virginia Key Beach was the only beach in Miami where 
African Americans could go to swim in the 1940s, 1950s and early 1960s. 
``Virginia Key Beach, a Dade County Park for the exclusive use of 
Negroes'' opened on August 1, 1945. Until that time, Miami's beaches 
had been reserved for whites only.
    Dade County created the park in response to the efforts of the 
African-American Community to integrate the beaches in Miami.
    In May 1945, community leaders and members of the Negro Service 
Council (NSC), a forerunner of the Urban League of Greater Miami, 
decided to force the issue to allow blacks to use a beach. They 
discussed a ``wade in'' at an all-white beach called Baker's Haulover. 
They wanted to force the arrest of the blacks for wading in the water 
at a white beach. They were aware of recent decisions by the Supreme 
Court that had ruled that segregation of public lands and parks was 
unconstitutional.
    When sheriff's deputies were called to the beach, Dade County 
Sheriff Jimmy Sullivan ordered them not to arrest the bathers knowing 
that the action was indefensible in court. On June 5, 1945, the Miami 
Herald reported that County Park Superintendent would announce plans 
for a Negro beach.
    The location for a beach was less than ideal; there was no bridge 
and the only way to get there was by taking a boat from the Miami 
River.
    Despite these impediments, African Americans made Virginia Key 
Beach a thriving center for their social and cultural activities. 
Virginia Key Beach quickly became a cherished getaway, a social 
gathering place, and even a sacred site for religious services.
    The beach was the site for baptisms, courtships and honeymoons, 
organizational gatherings, visiting celebrities and family recreation.
    In its heyday, the parking lots were usually full on weekends, as 
families flocked to enjoy their little piece of paradise and children 
hopped on the Mini-Train or on the Merry-Go-Round.
    Even after integration granted everyone a free choice of recreation 
areas, Virginia Key Beach remained the popular preference for many in 
the Black community.
    I used the park frequently myself and brought my children there 
when they were young. The fact that I am in Congress today shows how 
much society has changed in the intervening years.
    Virginia Key Beach is a national treasure that stands as a monument 
to America's journey toward racial equality. As a reminder of our 
national heritage, Virginia Key Beach symbolizes the struggle of 
African Americans in the 20th Century during the era of racial 
segregation in the South and at the onset of the Civil Rights Era.
    Mr. Chairman, there are few of these sites in the National Park 
System. Out of 385 units currently in the Park System, only 4 have been 
designated to commemorate the Civil Rights Era. This is important. We 
do not do enough of this.
    In addition to representing an important part of the history of 
African Americans in the Southeastern United States, Virginia Key Beach 
also is an exceptional natural resource characterized by a unique and 
sensitive natural environment.
    The beach is part of Virginia Key, a 1000-acre barrier island that 
is situated just off the mainland of the City of Miami, between Key 
Biscayne to the south and Fisher Island to the north.
    Although there has been some limited development, the island is 
non-residential and includes ponds and waterways, a tropical hardwood 
hammock, and a large wildlife conservation area.
    The northwest portion of the island and adjoining waters are prime 
areas for local and migratory wildlife. The Key is home to more than 25 
species of birds during the winter, while its shallow waters contain 
extensive grass beds that support manatees, young sea turtles, and many 
juvenile fishes.
    Our society values things that are rare. This Congress has often 
expressed its belief in the importance of historic preservation. 
Undeveloped, natural areas on coastal, barrier islands are 
extraordinarily rare. We should place a high value on preserving them.
    Finally, let me note Virginia Key Beach's excellent location and 
its outstanding accessibility. Other national attractions such as 
Everglades National Park, Big Cypress and Biscayne National Park are 
extraordinary resources, but they are not readily accessible for 
individuals without personal transportation. Virginia Key is 
accessible. There is the Miami-Dade Metro Bus connection that is 
further enhanced by a good link to South Florida's Metro Rail.
    The huge numbers of tourists that fly into Miami, go on a cruise 
and then fly out of Miami, often do not have time for side trips to the 
Keys or the Everglades. They might, however, be able to find the time 
for a beach outing, a cultural/historical experience or a naturalist-
led walk on Virginia Key Beach.
    Mr. Chairman, Virginia Key Beach occupies a special place in the 
heart of all of us from South Florida. Its value to the nation and to 
Florida is based not just on its natural beauty, but also in its legacy 
of the ongoing struggle of African Americans for equal rights and 
social justice.
    HR 2109 is an important step in recognizing this special place not 
only as a valuable piece of South Florida's history and culture, but 
also as part of our national heritage. Inclusion in the National Park 
System would ensure that Virginia Key Beach is preserved and protected 
for future generations.
    Thank you once again for holding this hearing and for your 
consideration of this bill. I look forward to working with you to pass 
this legislation, before this session of Congress concludes.
                                 ______
                                 
    Mr. Radanovich. I would like to introduce Congressman 
Hastings, since we are talking about the same issue, and then 
ask any other members afterwards on the panel that want to ask 
questions to please do so, and then invite you to join us on 
the dais.
    Congressman Hastings, welcome. It is an honor to have you 
here and thank you very much.

STATEMENT OF HON. ALCEE HASTINGS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mr. Hastings. Thank you, Mr. Chairman. It is a real honor 
to appear before you and your ranking member as well as all the 
other members of this Committee, all I call my friends. But I 
am here today with my best friend in Congress and she is my 
biggest booster next to my mom, so when she talks that stuff 
about me being young, it is serious for me.
    In addition, no pun is intended, but Carrie has covered the 
waterfront on this issue, so there is very little left for me 
to say. I would be remiss, however, in spite of his absence, I 
do serve with my good friend and colleague, Chairman Dreier, on 
the Rules Committee and I thought it was more than thoughtful 
of him to be complimentary of this legislation as offered by 
Mrs. Meek and I really appreciate him doing that.
    This is not meant to be a mutual admiration society, but 
the measure that he brings, if all the mechanical hitches can 
be worked out between Interior and Veterans, then it would seem 
to me more than logical. As a matter of fact, when Chairman 
Dreier and I were speaking earlier before this hearing, I had 
no knowledge that such a data base did not exist in the first 
place. It just seems to be a make sense proposition and I am 
sure that the Committee is going to give it active 
consideration.
    Mr. Chairman, I would like to submit my full statement for 
the record. It is brief, and I, too, shall be brief.
    Mr. Radanovich. It will be included.
    Mr. Hastings. Thank you. With that in mind, Mr. Chairman, I 
really am 65 years young, and I was born in Altamonte Springs, 
Florida. During the halcyon days of segregation, there were 
four beaches--I do not know whether Mrs. Meek knows this--in 
Florida that African Americans could go to. I was fortunate in 
that I lived in Central Florida, that approximately at the 
Fourth of July or the holiday period, my parents would take it 
upon themselves to go to some of those beaches.
    One was American Beach, interestingly named, in 
Jacksonville, Florida. The other was Dr. Lowrey's Beach in 
Leesburg, Florida, which is in Central Florida, and was very 
close to us so we went there frequently. The other, I did not 
get to know until I moved to South Florida 40 years ago and 
that was still during the halcyon days of segregation. The 
other was the Colored Beach in Dania, Florida. It has an 
interesting history. I do not think it deserves the same 
recognition as Virginia Key does, Virginia Key being the fourth 
of only four places for all African Americans. There were none 
on the West Coast of Florida. Fort Myers, you could not go to 
the beach.
    I might add, when we say you could not go to the beach, we 
sneaked on the beach, you understand, and there were folks, I 
might add a significant number of people, that were seeing to 
it that we had those opportunities.
    But this was a place where people congregated. As Carrie 
has said, it is a place where people were baptized, and I can 
recall as a young man, young lawyer, coming to South Florida 
and knowing that I wanted to go to the beach, either with then 
my girlfriend, later to be my wife, and whatever other fun 
activities, we would look forward to going to Virginia Key.
    I heard about Virginia Key when I was in elementary school, 
and it was 40 years later before I had an opportunity to go 
there. It has an enormous history.
    The most important thing that I think this Committee would 
take into consideration, and I will stop right here, is it adds 
nothing to the national debt. It would be one thing if we were 
here asking for money. Basically, what we are asking for is to 
preserve a legacy of a well-deserved project brought to us by 
one of the hardest working people on behalf of all of her 
constituents in South Florida, and I beg the Chairman and your 
members of the Committee to give positive consideration to this 
legislation.
    Thank you, Mr. Chairman and ranking member, for permitting 
me to testify before you today. It is a real honor.
    Mr. Radanovich. Thank you, Mr. Hastings.
    [The prepared statement of Mr. Hastings follows:]

Statement of Hon. Alcee L. Hastings, a Representative in Congress from 
                          the State of Florida

    Mr. Chairman, I appreciate the opportunity to submit this testimony 
to the Committee on behalf of H.R. 2109, a bill which I have 
cosponsored that would authorize the Secretary of Interior to conduct a 
special resource study of historic Virginia Key Beach, Florida, for the 
inclusion into the National Park System. Mr. Chairman, and the members 
of the Committee, I appreciate the opportunity to support a very 
important bill which will allow Congress to preserve and protect this 
beautiful beach site area.
    This legislation allows for the beautiful palm-studded old Florida 
beach located on a 1,000-acre barrier island, one of Miami's real 
treasures, to be recognized as a National Park. Miami's historical 
Virginia Key Beach has been one of Florida's most beautiful and unique 
areas since 1896. Virginia Key was at one time one of Miami's most 
popular beaches for African-Americans to enjoy.
    Mr. Chairman, this bill does not add to the national debt, so there 
is no need to oppose it for economic reasons. This bill does not change 
any of the requirements for the inclusion process for national parks. 
All this bill calls for is the recognition of the 77-acre historic 
Virginia Key Beach site in Miami, Florida. Passing this bill would both 
a reasonable and responsible approach in recognizing the significant 
value of this former ``colored beach''. Florida needs a place that is 
recognized for it's historical significance, a place that can be 
enjoyed today for both recreational purposes and so that people can 
learn about the history of this extraordinary scenic recreational site.
    I appreciate the opportunity to come before the Committee and hope 
for the passage of this legislation.
    Thank you, Mr. Chairman.
                                 ______
                                 
    Mr. Radanovich. Are there any questions from any other 
members on the Committee, the Subcommittee? Mr. Souder?
    Mr. Souder. Congresswoman Meek or Congressman Hastings, 
does Miami have plans to keep the rest of the key in a 
relatively natural state?
    Mrs. Meek. Yes, they do. Miami does. It belongs to the city 
of Miami and they do have plans to keep it well.
    Mr. Souder. Would there be an uncomfortability if the 
legislation moves forward of putting some obligations on Miami 
and Florida to participate in maintaining an area so you do not 
get it isolated, an isolated place where people can go but, in 
fact, it gets surrounded either by commercially selling the 
land or by other types of development? It would be important if 
it became part of the Park Service.
    If I can add to that, it may be that this would fit a 
lakeshore type of situation or a historical park. It does not 
necessarily need--I mean, there are different types of units. 
Have you given any thought to that?
    Mrs. Meek. We worked very closely with the city of Miami. 
At this point, there are no plans for such kinds of eroding 
development. Right now, it is a natural site and it appears 
that they want to keep it a natural site. Of course you know, 
politically, there are always some people who want to add 
development to a beautiful, pristine area such as this. Right 
now, there are no plans for such development.
    Mr. Souder. It is an important concept in the Indiana Jones 
lakeshore off of Chicago, where many people for years went, and 
now as we try to rebuild that park, if you do not have some 
protections, it is better to head it off early than to try to 
undo it later--
    Mrs. Meek. Yes, you are right.
    Mr. Souder. --because it is costing us far more for each 
little acre getting back from the different industries and the 
development than it would have ever if there had been longer-
term planning.
    Mrs. Meek. Yes, sir. The Committee with whom we have worked 
very closely, the Virginia Key Park Commission, which was 
commissioned by the city of Miami, has been quite a strong 
watchdog toward this type of thing. At this point, I can say 
those things are not relevant. I mean, they have not come 
across. They have fought anything that has in any way 
jeopardized the development of Virginia Key. That is not to say 
what will happen in ten, 15 years from now, but right now, 
there is nothing on the books for it.
    Mr. Souder. Thank you.
    Mr. Radanovich. Thank you.
    Mr. Holt?
    Mr. Holt. Thank you, Mr. Chairman. Whenever our colleague 
Alcee Hastings speaks, he makes a compelling argument, and I do 
not know how anyone could say no to Carrie Meek. I think this 
is a fine idea and I look forward to this legislation moving 
along.
    I do have a question about what has been done so far to 
record, interpret, and present the social history of this 
important area that was so important in the lives of so many 
people. I gather it is really the role that Virginia Key Beach 
played in the lives of people that we are trying to recognize 
here, more than the physical spot, and I would like to know 
what has been done up to this point.
    Mrs. Meek. Well, the Black Archives History Research 
Association of Dade County and in Florida has done significant 
work in preserving historically what has been done at Virginia 
Key Beach. This has been a significant project which has been 
supported and developed by not only the city of Miami, but the 
county, as well, and it is an important site in the civil 
rights significance of the natural trails that have been 
recognized by the Florida Legislature. So there is quite a bit 
of preservation work done with this particular park and this 
particular site. Alcee?
    Mr. Hastings. If I may add, Mr. Holt, and thank you for 
your clarifying compliment, the archivist that Carrie speaks of 
is one of the nation's more prominent ones. Her name is Dorothy 
Fields, and Dorothy some time ago, not only as it pertains to 
Virginia Key but all of the history of African Americans in 
that portion of Florida and South Florida, and this Congress 
has participated in funding a project that will also cover the 
preservation of not only Virginia Key but all of it in Fort 
Lauderdale, in my district, which is going to be one of the 
preeminent, and I mean most sincerely, one of the preeminent 
black archivist places for scholars to study, but enough.
    I would go back to Mr. Souder's point very quickly of this 
area is 77 acres and has been for a long time considered an 
area of preservation. But lest we leave here with anybody 
thinking that it is still a colored beach, what normally has 
happened in these situations, when you all discovered what we 
had, all of a sudden you began to use it, and so the beach is 
very well used by everybody. Let me make that very clear.
    Mrs. Meek. And one other significant thing, Mr. Chairman, 
if you will allow me to speak again, is that with the efforts 
of this Congress, the Corps of Engineers has taken a very 
strong role in redeveloping the beach in terms of beach 
restoration. That is a very big problem in Florida, beach 
restoration. We have quite a few storms and hurricanes, and as 
a result, many of the beaches lose the sand. So the Corps of 
Engineers has come in, thanks to this Congress, and they have 
restored the beach. They have done a lot of work in the barrier 
islands to make this a better place to develop a park.
    Mr. Holt. Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you very much.
    Ms. McCollum?
    Ms. McCollum. No questions.
    Mr. Radanovich. No questions? Our next panel includes Mr. 
David Mihalic from Yosemite, but he is also here representing 
the Park Service on this issue, so you are more than welcome to 
join us on the dais if you have any questions. Thank you very 
much.
    Mrs. Meek. Thank you.
    Mr. Hastings. Thank you.
    Mr. Radanovich. Our next panel includes the Honorable 
Vincent Barile, who is the Deputy Under Secretary for 
Management of the National Cemetery Administration of the 
Department of Veterans' Affairs in Washington, D.C. Mr. Barile, 
thank you very much for being here. It also includes the 
Honorable David Mihalic, who is the Superintendent of Yosemite 
National Park with the National Park Service, Department of 
Interior, here to speak on two bills regarding Yosemite, but 
also representing the Park Service on Virginia Key Beach. Mr. 
Mihalic, welcome as well.
    Mr. Barile, if you would like to begin regarding your 
testimony on H.R. 2748, on the American Veterans' Memorials 
bill.

  STATEMENTS OF VINCENT L. BARILE, DEPUTY UNDER SECRETARY FOR 
 MANAGEMENT, NATIONAL CEMETERY ADMINISTRATION, CENTRAL OFFICE, 
        DEPARTMENT OF VETERANS AFFAIRS, WASHINGTON, D.C.

    Mr. Barile. Thank you, Mr. Chairman. Mr. Chairman and 
members of the Subcommittee, thank you for the opportunity to 
testify before you today regarding H.R. 2748, also known as the 
National War Permanent Tribute Historical Data base Act. I have 
submitted my written testimony for the record.
    The Department of Veterans' Affairs' mission is ``to care 
for him who shall have borne the battle, and for his widow and 
his orphan.'' These words, spoken by Abraham Lincoln in his 
second inaugural address, form the basis for the Department's 
existence. In today's environment, President Lincoln's 
statement reflects VA's responsibility to serve America's 
veterans and their families. In fulfillment of these 
responsibilities, VA's focus is on provision of direct 
beneficiary services.
    My organization, the National Cemetery Administration, is 
one of three administrations within the Department of Veterans' 
Affairs. We operate and maintain 120 national cemeteries across 
the country. During the last fiscal year, we maintained over 
2.4 million gravesites of veterans and their dependents. We 
performed over 84,000 burials of both casket and cremated 
remains and we provide over 300,000 headstones and markers.
    Our country is now losing our World War II and Korean War 
veterans at an increasing rate. We lost an estimated 663,000 
veterans in fiscal year 2001. In the next couple of years, we 
expect the death rate to peak, which means 1,800 veterans will 
die each day. We are committed to continue to meet the burial 
needs of our veterans today and in the future.
    H.R. 2748 would require VA to expand its mission to include 
establishing and maintaining a data base for permanent 
memorials located worldwide. For the reasons below that I am 
going to elaborate on, VA cannot support enactment of H.R. 
2748.
    Based on our research, the data base contemplated by this 
bill would tend to duplicate resources already available. 
Certain Federal agencies and numerous private organizations 
already maintain publicly accessible Internet data bases that 
provide information about national war memorials. The 
Smithsonian Art Museum currently maintains a data base located 
on the Internet as part of its Save Outdoor Sculpture project. 
Over 32,000 sculptures and monuments are listed, of which over 
4,000 entries relate to veterans.
    The National Park Service maintains several searchable data 
bases on its Internet home page, included data bases for the 
National Register of Historic Places, National Historic 
Landmarks, Historic Buildings and Structures, and military 
history. Also, the American Battle Monuments Commission, an 
organization in charge of maintaining American cemeteries 
abroad as well as several war memorials, has information on its 
website regarding the memorials under its jurisdiction.
    The creation, oversight, and management of a worldwide 
inventory of American war memorials of this magnitude would 
exceed the current mission capabilities of VA, which involve 
administration of quality health care to veterans, provision of 
monetary assistance to disabled veterans, and the operation of 
the national cemeteries. If a website were created to 
consolidate historical information and data on war memorials, 
VA could provide information on its cemeteries and war 
memorials under its jurisdiction.
    VA's policy on information technology is that only data 
that has been verified by VA may be displayed on its website. 
Thus, any information provided to VA for its website would have 
to be independently verified by the VA before it could be used.
    Further, any project outsourced to a private entity, the 
cost of which exceeds $1 million, must be approved by VA's 
capital investment proposal process and would be subject to 
governmental contracting procedures. VA cannot accurately 
estimate the cost of this project, since the number of 
memorials that would be inventoried is not known. However, 
maintaining and updating the data base would be an ongoing 
project, the cost of which could not be covered by a one-time 
appropriation.
    Our veterans have fought and paid for our nation's freedom 
and independence. We all owe them a great deal and we should 
honor their memories. It is important to remember that VA's 
primary mission is to meet the medical benefits and burial 
needs of our veterans and their veterans and survivors.
    Mr. Chairman, this concludes my statement and I will be 
pleased to respond to any questions you or the members of the 
Subcommittee may have.
    Mr. Radanovich. Thank you very much, Mr. Barile.
    [The prepared statement of Mr. Barile follows:]

Statement of Vincent L. Barile, Deputy Under Secretary for Management, 
    National Cemetery Administration, Department of Veterans Affairs

    Mr. Chairman and Members of the Subcommittee:
    Thank you for the opportunity to testify before you today regarding 
H.R. 2748, also known as the ``National War Permanent Tribute 
Historical Database Act.'' This bill, if enacted, would ``authorize the 
establishment of a national database for purposes of identifying, 
locating, and cataloging the many memorials and permanent tributes to 
America's veterans.''
    The Department of Veterans Affairs' (VA) mission is ``to care for 
him who shall have borne the battle, and for his widow and his 
orphan.'' These words, spoken by Abraham Lincoln in his second 
inaugural address, form the basis for the Department's existence. In 
today's environment, President Lincoln's statement reflects VA's 
responsibility to serve America's veterans and their families with 
respect and compassion, and to be their principal advocate in promoting 
the health, welfare, and dignity of all veterans in recognition of 
their service to our Nation. In fulfillment of these responsibilities, 
VA's focus is on provision of direct beneficiary services, not 
performance of historical research and archival functions.
    VA is organized into three main administrations: the Veterans 
Health Administration, the Veterans Benefits Administration, and the 
National Cemetery Administration (NCA). My organization, NCA, is 
responsible for meeting the burial needs of our Nation's veterans. We 
operate and maintain 120 national cemeteries across the country-we 
consider these our ``national shrines.'' In fiscal year 2001, we 
maintained over 2.4 million gravesites of veterans and their 
dependents. This number continues to grow. In fiscal year 2001, we 
performed over 84,000 burials of both casketed and cremated remains. 
NCA is also responsible for administering the headstone and marker 
program-we provided over 300,000 headstones and markers in fiscal year 
2001. Our country is now losing our World War II and Korean War 
veterans at an increasing rate-we lost an estimated 663,000 veterans in 
fiscal year 2001. In the next couple of years, we expect the death rate 
to peak, which means 1,800 veterans will die each day. We need to stay 
focused on how we can continue to meet the burial needs of our veterans 
today and in the future.
    H.R. 2748 would require VA to expand its mission to include 
establishing and maintaining a database of permanent memorials located 
worldwide commemorating military conflicts of the United States or the 
service and sacrifice of any United States Armed Forces veteran. The 
database would provide information on the location, history, and 
background of each memorial. The database would be accessible to the 
public through the Department's Internet website in a format that would 
permit the public to submit information on war memorials for the 
purpose of updating and expanding the database. The proposed 
legislation would also authorize a one-time appropriation of $3.2 
million to implement the worldwide database project. For the following 
reasons, VA cannot support enactment of H.R. 2748.
    Based on our research, the database contemplated by H.R. 2748 would 
tend to duplicate resources already available, and the need for such an 
additional database has not been demonstrated. Certain Federal agencies 
and numerous private organizations already maintain publicly accessible 
Internet databases that provide information about national war 
memorials. Two Federal entities, the Smithsonian American Art Museum 
(Smithsonian) with its partner Heritage Preservation, Inc., a private 
non-profit, and the National Park Service, already have active 
databases containing thousands of national war memorial and monument 
entries. The Smithsonian maintains a database located on the Internet 
at www.siris.si.edu as part of its Save Outdoor Sculpture! project. 
Over 32,000 sculptures and monuments are listed, of which over 4,000 
entries relate to veterans. Information on these war memorials can be 
accessed by using a variety of search terms under the ``Art 
Inventories'' link located on the Smithsonian home page. The National 
Park Service has also catalogued thousands of structures, memorials, 
markers, and plaques located on national park lands that are associated 
with wars and military history. The National Park Service maintains 
several searchable databases on its Internet homepage ``Park Net'' at 
www.nps.gov, under the icon ``Links to the Past,'' including databases 
for the National Register of Historic Places, National Historic 
Landmarks, Historic Buildings & Structures, and Military History.
    If the contemplated database were to be created, neither VA nor 
NCA-the VA component that would most likely be responsible for the 
project-would be equipped to administer it. The creation, oversight, 
and management of a worldwide inventory of American war memorials would 
exceed the current mission and capabilities of VA, which primarily 
involve administration of quality health care to veterans; provision of 
monetary assistance to disabled veterans and their families, 
dependents, and survivors; and operation of the national cemeteries. VA 
lacks the infrastructure and staff that would be necessary to develop 
and maintain the contemplated database. Alternatively, VA could provide 
information on its cemeteries and war memorials under its jurisdiction 
through another entity that maintains a publicly available database. 
For example, if a website were created to consolidate historical 
information on war memorials, VA could share historical information and 
data on structures located in all of its 120 cemeteries.
    The proposed legislation anticipates that VA may contract with a 
private nonprofit corporation, Remembering Veterans Who Earned Their 
Stripes (RVETS), which has already developed a working database of war 
memorials, for information or services to assist in the development and 
implementation of the database. VA's policy on information technology 
is that only data that has been verified by VA may be displayed on a VA 
website. Thus, any information obtained from RVETS would have to be 
independently verified by VA before it could be used. Further, although 
the proposed legislation refers to RVETS by name as a potential 
contractor, any project outsourced to a private entity, the cost of 
which exceeds $1 million, must be approved by VA's Capital Investment 
Proposal process and would be subject to Government contracting 
procedures.
    VA cannot accurately estimate the cost of this project, since the 
number of memorials that would be inventoried is not known. However, 
maintaining and updating the database would be an ongoing project the 
cost of which could not be covered by a one-time appropriation.
    Our veterans have fought and paid for our Nation's freedom and 
independence. We all owe them a great deal, and we should honor their 
memories. It is important, though, to remember that VA's primary 
mission is to meet the medical, benefits, and burial needs of our 
veterans, and their dependents and survivors.
    Mr. Chairman, this concludes my statement. I will be pleased to 
respond to any questions you or the members of the Subcommittee may 
have.
                                 ______
                                 
    Mr. Radanovich. I think what we will do is ask you 
questions regarding this bill, and then Mr. Mihalic will be 
responding to the remaining three bills, so I will go ahead and 
start with some questions. Other members are able to, and then 
we will take testimony from Mr. Mihalic.
    Mr. Barile, you had mentioned in your testimony that the 
legislation would duplicate data bases already in existence. 
Does the Department believe that these data bases collectively 
represent all the memorials, monuments, and tributes that exist 
today, especially in non-Federal sites?
    Mr. Barile. I do not believe we feel that it is 
comprehensive. In our own world of the VA, we are embarking 
upon doing our own inventory and validating that inventory. I 
would suspect that there is not a complete inventory anywhere.
    Mr. Radanovich. And may I assume it is the Veterans' 
Affairs Department that has come to the conclusion that these 
memorials and the sites and the data bases should be managed by 
the National Park Service? If I am correct in that, then can 
you give me an explanation as to why?
    Mr. Barile. I would have to defer to the Park Service. We 
are not suggesting that it belongs with the Park Service. We 
are suggesting that it does not belong with the VA.
    Mr. Radanovich. OK. Can you tell me, of the different sites 
that you know across the country, what is the percentage that 
you have in your data base? How much might be missing?
    Mr. Barile. I do not believe I have that information. We 
probably could try and find that for the record for you.
    Mr. Radanovich. If you could generate that for us, that 
would be appreciated.
    Mr. Barile. Will do.
    Mr. Radanovich. Any questions from any other members?
    Mr. Souder. Yes, Mr. Chairman.
    Mr. Radanovich. Mr. Souder?
    Mr. Souder. I just have a question, a couple of different 
things. I want to put kind of a plug in for something that is 
coming up the road. The American cemetery at Normandy, which I 
believe comes under the Department of Veterans' Affairs, is 
that correct?
    Mr. Barile. No. That comes under the American Battle 
Monuments Commission.
    Mr. Souder. Then I will not ask you that question. In your 
statement where you catalogued all the different places you 
could go to try to find veterans' memorials, my assumption is 
that the thrust of this goal is to make that somewhat 
manageable. In my home area, for example, we have a Veterans' 
Park that had the first real developed Korean memorial. They 
are looking to build a chapel there. We have a Vietnam 
veterans' memorial. We have a World War I memorial arch. If 
they went to the Veterans' Department home page, are they 
likely to find any of those?
    Mr. Barile. No, sir, they would not. The only memorials you 
will find, and as I said, we are starting to do that, are our 
own. We recently hired an historian and we are doing our own 
inventory and validating. Principally, we look at the 2.4 
million headstones and memorials as a memorial to the veterans' 
service. We have that catalogued. We are almost completed with 
that data base.
    What we are now looking at is the historic structures 
within the cemeteries, as well as some of the structures that 
are within the hospital system, on those lands. At that point, 
then, we would be able to say within the VA boundaries. We are 
not capable of validating memorials that are outside of our 
jurisdiction.
    Mr. Souder. That tremendously clarifies what the depth of 
the problem is, because many of the memorials, in addition to 
the Civil War sites--let me ask this question. At Gettysburg, 
for example, what would come under Veterans' and what would 
come under the Park Service? Is the cemetery under Veterans'?
    Mr. Barile. No. The cemetery at Gettysburg is under the 
National Parks. It is a national cemetery, but it is not under 
the VA's jurisdiction.
    Mr. Souder. And certainly none of the memorials to the 
soldiers who died at Gettysburg or at other parks would be 
under the Veterans'?
    Mr. Barile. We have many Civil War cemeteries, not 
necessarily Gettysburg, but we have Civil War dead buried in 
our national cemeteries.
    Mr. Souder. But a memorial, a tribute to them, unless it is 
in the cemetery, U.S. veterans' cemetery, would not be in your 
data base?
    Mr. Barile. That is correct.
    Mr. Souder. And I think this illustrates some of the 
problem. How to get to this is a difficult question. But, for 
example, there is a big battle, so to speak, as to whether at 
some of these sites we should have the memorials. There was a 
period when we felt we should put memorials. The historic 
preservationists like the memorials. The natural 
preservationists want them off the battlefields. That is 
something, I am sure, of interest to veterans. How do they 
engage in that?
    To use my own examples from Fort Wayne, the arch might be 
under Historic Landmarks. The Korean veterans' memorial, if you 
were looking for that, it is hard to tell how you would find 
it, and I think that is part of the idea behind this 
legislation. I mean, I have been further confused that Normandy 
is not under the Veterans', nor is the Gettysburg battlefield, 
but in some cases, Civil War people would be under a cemetery 
where you are or are not. The memorials may or may not be, even 
if they are on Federal property. Some are under the Park 
Service, some are under yours, some are independent, and I 
think that is partly what is trying to be put together here.
    Part of my frustrations as a business person coming into a 
parks area is trying to look at things as categories and how 
Americans who want to love and preserve their cultural history 
can get a handle on the diversity of it if you do not have an 
MBA in searching through government sites.
    Mr. Barile. We agree with your frustration. We often get 
communications about A, B, and C cemeteries. Arlington is not 
ours, also. Arlington belongs to the Department of the Army, 
even though it is a national cemetery. So I understand your 
frustration and confusion. What we try to do is we put up our 
own website and we talk to the Park Service and/or Arlington 
and we let them know what we have and what is available and try 
to have that hyperlinked, so to speak.
    Mr. Souder. Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Mr. Souder.
    Mrs. Christensen?
    Mrs. Christensen. Thank you, Mr. Chairman.
    The bill authorizes just the maintenance of a data base. I 
mean, we are not trying to put everything under the VA's 
jurisdiction. It is maintaining a data base. What I am hearing 
is that you object to the bill--you are not objecting to the 
data base, you are objecting to the fact that it is under the 
Veterans' Administration, that it would be placed there.
    Mr. Barile. That is correct. We feel that it is, to 
reference the Congressman's point, it is confusing for people. 
We agree that there is a need for maybe some centralized 
accountability. But as I said in my testimony, some of that is 
already existing in other entities. Now, it is not consistent. 
Some may have pictures, some may have descriptions. Our concern 
is that that falls beyond the jurisdiction of what we would 
feel comfortable maintaining.
    Mrs. Christensen. Well, it is veterans and it just seems to 
me it should be done by the Veterans' Administration, but the 
bill also authorizes an appropriation to carry out the Act. It 
would not ask the Veterans' Administration to do it and use the 
funds that are already there for something else. There is also 
funding in the bill to create the data base.
    Mr. Barile. Any data base, once created, has to be 
maintained, updated, and again, I go back to the issue about 
validation. There are numerous monuments and memorials on 
private lands and public lands that are not within the 
jurisdiction of any Federal entity, and to put that on a 
website which then would be out for public consumption without 
feeling comfortable as to the authenticity of it, we have some 
concerns about that.
    Mrs. Christensen. Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Mrs. Christensen.
    If there are no other questions, Mr. Mihalic, would you 
like to respond or have any input on behalf of the Department 
of Interior on this particular bill or this issue?
    Mr. Mihalic. Mr. Chairman, the Department does not have a 
position on this bill. I would be happy to respond to any 
questions. I do know that--this is a point of clarification. 
The monuments that we do have on our existing data base that 
were referred to are monuments and memorials at places, as Mr. 
Souder said, for example, at Gettysburg. In fact, almost 90 
percent of them are on National Park units where there are 
monuments and memorials to the Civil War, also to the 
Revolutionary War and the War of 1812, but most of those are on 
National Park units themselves.
    Mr. Radanovich. I see. Would you be looking forward to the 
increased responsibility of maintaining a data base if it were 
given to you?
    Mr. Mihalic. Mr. Chairman, I do not think that--obviously, 
if Congress wants us to do that, we would look forward to it 
with great interest.
    [Laughter.]
    Mr. Mihalic. But I do not believe, Mr. Chairman, that--I 
think the concern is that, as Mr. Barile said, there are 
literally tens of thousands of these on every courthouse lawn 
and the cornerstone of every VFW building, and I am not sure if 
that is an appropriate place that the National Park Service 
should be. But we would be honored to try to help the 
Department of Veterans' Affairs in terms of trying to provide 
any type of expertise that we could or to support them. I mean, 
we would certainly be happy to support them in their efforts to 
catalog.
    Mr. Radanovich. Good answer.
    [Laughter.]
    Mr. Radanovich. Any other questions? Yes?
    Mr. Souder. Mr. Mihalic, could I ask you a brief question 
about the studies question which comes up, because we pass 
bills to do studies all the time. What does, and my 
understanding from your written testimony on one of these, that 
few studies are done per year. Is there an appropriation line 
specifically for studies? How do you decide which studies you 
are going to do in queuing up?
    Mr. Mihalic. We have about, I believe, 41 studies right now 
and I am not sure whether they all have appropriations with 
them to do the studies. But our capability to do studies is 
that we can do only a few each year.
    Mr. Souder. Is that a staffing issue?
    Mr. Mihalic. I think it is probably staffing and also the 
other responsibilities that we have.
    Mr. Souder. And if appropriations were assigned for the 
study, do you know from your background, are the appropriations 
to cover the staffing or the field work? In other words, if 
there is an appropriation attached to it--in other words, we 
understand the difference between authorizing. That is 
symbolic. If it does not have any money, it has to get in a 
queue system and maybe see the light of day.
    If that gives you the flexibility as a member to go try to 
get an appropriation for it, is the backlog in studies--which 
since right now the administration's position is no new net 
land, almost everything coming through is a study--that is 
clearly going to backlog that system unless we can figure out a 
way to fund the studies. And even a further side thing to that 
is, is it always necessary to do a study or sometimes can you 
move to implementation? I do not have a concept in my head how 
the Park Service handles a study versus an implementation.
    Mr. Mihalic. I believe with respect to appropriations, I 
believe that we do go through the normal process when we 
propose studies for a particular fiscal year. I will be happy 
to provide some clarifying information on that to make sure 
that I have got that right.
    With respect to the other part of your question in terms of 
the Department's policy on studies, I am not sure we have a 
formal policy on studies, but I do know that the National Park 
Service ordinarily believes that a study of the significance of 
a unit is really the best way to go to determine if it does 
rise to the level of national significance that makes a 
particular site or an area an appropriate addition to the 
National Park System. So usually, we certainly prefer to engage 
in a study as opposed to just go straight to the establishment 
of a park where perhaps we have not had the opportunity to see 
if it is of National Park significance.
    Mr. Souder. Mr. Chairman, maybe you could have the 
Department of Interior give us just a rough idea of how many 
studies they come back with a recommendation they do not do 
that are different from their--in other words, often, they 
oppose any new additions to the Park Service anyway, but do the 
studies really make a difference or is that merely a kind of a 
delay tactic of buying time? That is my curiosity.
    Mr. Radanovich. Probably a little of both, but I know that 
we will be discussing that in regard to Mrs. Meek's bill and 
mine, as well, so naturally I want mine No. 1 and Mrs. Meek 
wants hers No. 2, ahead of the 41.
    [Laughter.]
    Mr. Radanovich. So that is kind of what we are going to be 
pushing for. But seriously, though, we are going to be 
discussing this further, I think, as we talk about these other 
bills. Is it something specific that you want to request, Mark, 
regarding the 41, or--
    Mr. Souder. Well, I am wondering if they have any kind of 
historic track record of study requests passed by Congress and 
then what happens to those study requests.
    Mrs. Christensen. And how many studies become part of the--
    Mr. Souder. Yes. I will work with language. Some of those 
studies may be--how many studies annually does Congress pass 
and how many are actually implemented, and of those studies 
that are actually implemented, how many of those actually 
become parks versus come back as a recommendation, ``no,'' 
because what we may see is like a 10-year queue line that, in 
reality, has no impact on whether the things become a park or 
not.
    Mr. Radanovich. Yes. I think that we can certainly, if we 
can formulate the request, I am sure the Park Service would be 
happy to comply with providing the information.
    Mr. Souder. And it may be that what happens is it does not 
really change it, but it changes the targeting of the request 
and makes the park more effective.
    Mr. Radanovich. Sure. Right.
    Mr. Souder. But to kind of understand the relationship 
between the studies and just the passage of a bill.
    Mr. Radanovich. Sure. Let us make it. You will work with us 
and the staff to put that language together, certainly.
    Thank you, Mr. Mihalic, and also, Mr. Barile, thank you 
very much for coming here to speak on this particular bill.
    Next, Mr. Mihalic, I think what we would like to do is 
discuss the Virginia Key Beach bill and then also the two bills 
that I have before the Committee, as well. So if you would like 
to provide an opening statement on those three, that would be 
great.

 STATEMENT OF DAVID MIHALIC, SUPERINTENDENT, YOSEMITE NATIONAL 
    PARK, NATIONAL PARK SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Mihalic. Thank you, Mr. Chairman and Mrs. Christensen. 
I will summarize my remarks and ask that the full statement be 
added as part of the record.
    Mr. Chairman, thank you for the opportunity to present the 
Department of Interior's views on H.R. 2109. The Department 
believes that it is appropriate for the National Park Service 
to undertake a study of this nature and supports the 
legislation and concept. However, in light of the President's 
commitment to replacing the backlog of deferred maintenance 
needs within the National Park System, we will not be 
requesting funding for this study in this fiscal year.
    Nonetheless, our support of this study legislation should 
not be interpreted as to mean that the Department would 
necessarily support designation of a new unit of the National 
Park System. The study would evaluate the site's national 
significance and the suitability and feasibility of designating 
it as a unit of the National Park System. The guidelines 
specifically state that studies consider other alternatives for 
protection of the subject area besides direct management by the 
National Park Service.
    At the present time, efforts are underway locally to 
promote recognition and restoration of Virginia Key Beach Park. 
In 1999, the city of Miami appointed the Virginia Key Beach 
Park Civil Rights Task Force to study and make recommendations 
for the site. A nomination for the National Register of 
Historic Places is currently being prepared for the site, and a 
special resource study conducted by the National Park Service 
would draw from the information compiled through these efforts 
and facilitate decisions about the appropriate means to 
recognize and protect the site.
    We recommend one technical amendment to H.R. 2109, which is 
to change the name of the site in the bill text and the title 
from ``Virginia Key Beach'' to ``Virginia Key Beach Park.'' 
Although the names have been used interchangeably, using the 
term ``Virginia Key Beach Park'' would help clarify that the 
study is focused on the 77-acre recreationsite and does not 
include the entire beach of Virginia Key.
    Mr. Chairman, that concludes my statement and I will be 
happy to answer questions that you or the Committee will have.
    [The prepared statement of Mr. Mihalic follows:]

  Statement of David Mihalic, Superintendent, Yosemite National Park, 
     National Park Service, Department of the Interior on H.R. 2109

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H. R. 2109. This bill would 
authorize the Secretary of the Interior to conduct a special resource 
study of Virginia Key Beach in Biscayne Bay, Florida, where a 
recreational community for African Americans flourished at a time when 
non-whites were prohibited from using other beaches in the Miami area.
    The Department believes that it is appropriate for the National 
Park Service to undertake a study of this nature, and supports this 
legislation in concept. However, in light of the President's commitment 
to reducing the backlog of deferred maintenance needs within the 
National Park System, we will not request funding for this study in 
this fiscal year and, because we need to devote available time and 
resources to completing previously authorized studies, we would not be 
able to begin the study until at least fiscal year 2005. There are 41 
authorized studies that are pending, and we only expect to complete a 
few of those this year.
    Furthermore, in order to better plan for the future of our national 
parks, we believe that studies should carefully examine the full life-
cycle operation and maintenance costs that would result from each 
alternative considered. Additionally, our support of this study 
legislation should not be interpreted to mean that the Department would 
necessarily support designation of a new unit of the National Park 
System.
    H. R. 2109 authorizes the Secretary of the Interior to conduct a 
special resource study of Virginia Key Beach in Biscayne Bay, Florida. 
The study would evaluate the site's national significance and the 
suitability and feasibility of designating it as a unit of the National 
Park System. The bill calls for the study to be completed under the 
guidelines in Section 8 of P.L. 91-383, the National Park Service 
General Authorities Act of 1970, as amended, which contains the 
criteria for studying areas for potential inclusion in the National 
Park System. The guidelines specify that studies consider other 
alternatives for protection of the subject area besides direct 
management by the National Park Service.
    Virginia Key Beach Park is a 77-acre site on the southeastern side 
of Virginia Key, an island of approximately 1000 acres located two 
miles east of downtown Miami, Florida and about one mile southwest of 
the southern tip of Miami Beach. Although there has been some limited 
development, the island is non-residential and includes ponds and 
waterways, a tropical hardwood hammock, and a large wildlife 
conservation area.
    In the summer of 1945, at the ``whites-only'' Baker's Haulover 
Beach in north Dade County, a group of black men led by Judge Lawson E. 
Thomas staged a protest of the segregation laws that prohibited black 
persons from using the public beaches of Miami and Dade County. In 
response to the protest, county officials created a public beach for 
the black community on Virginia Key, which opened on August 1, 1945.
    The beach at Virginia Key had been used by African Americans for at 
least the two previous decades. During World War II, the Navy used 
Virginia Key Beach for training African American servicemen who were 
not permitted to train in the waters along the ``whites-only'' beaches. 
It was not until 1945, however, that the county began building 
recreational facilities there and making the beach more accessible by 
providing ferry boat service until the completion of the Rickenbacker 
Causeway in 1949 allowed access by automobile.
    Virginia Key Beach Park had bathhouses, picnic pavilions, a 
concession stand, and a carousel and other amenities. The beach 
remained segregated through the 1950's, until rights laws opened all 
the public beaches in the area. Still, through the next two decades, 
Virginia Key Beach remained a popular destination for many in the black 
community. In 1982, the area was transferred from the county to the 
City of Miami with the stipulation that the area be kept open and 
maintained as a public park and recreation area. However, the city 
closed Virginia Key Beach Park shortly after the transfer, citing the 
high cost of maintenance and operations. After nearly 20 years of non-
use, the bathhouse, concessions building and other facilities have 
fallen into disrepair.
    At the present time, efforts are underway locally to promote 
recognition and restoration of Virginia Key Beach Park. In 1999, the 
City of Miami appointed the Virginia Key Park Civil Rights Task Force 
to study and make recommendations for the site, one of which was to 
establish a more permanent entity to carry on the work of the task 
force. The Virginia Key Beach Park Trust was established in January, 
2001, to implement the task force's recommendations. A nomination for 
the National Register of Historic Places is currently being prepared 
for the site. A special resource study conducted by the National Park 
Service would draw from the information compiled through these efforts 
and facilitate decisions about appropriate means to recognize and 
protect this site.
    We recommend one technical amendment to H.R. 2109, which is to 
change the name of the site in the bill text and the title from 
``Virginia Key Beach'' to ``Virginia Key Beach Park.'' Although the 
names have been used interchangeably, using the term ``Virginia Key 
Beach Park'' would help clarify that the study is focused on the 77-
acre recreation site and does not include the entire beach of Virginia 
Key. It also would be consistent with the name that is being used for 
the site in the nomination for the National Register of Historic 
Places.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the Subcommittee may have.
                                 ______
                                 
    Mr. Mihalic. Would you like me to go ahead into the next 
testimony?
    Mr. Radanovich. Why do you not go ahead and open those up, 
too, and then we will go right through.
    Mr. Mihalic. Mr. Chairman, this statement is to present the 
views of the Department of Interior on H.R. 3421. As I said 
earlier, I will summarize these remarks and ask that the full 
statement be made a part of the record.
    While the Department believes that the students who attend 
schools in Yosemite National Park should have access to the 
same educational services and facilities found elsewhere in the 
State of California, we are concerned over the source of funds 
identified to accomplish the purposes of the bill, as well as a 
few other provisions in the bill. We would welcome the 
opportunity to work with the Committee to identify an 
appropriate source of funds and to clarify certain provisions, 
but cannot support the bill in its current form.
    The administration is generally concerned about the notion 
of diverting limited park funds to what is essentially a State 
responsibility. We do not want this to set a precedent that 
parks should take over responsibility for schools or create a 
National Park Service school system.
    Because the schools in the park are located long distances 
from administrative offices of their school districts, there 
has been limited access to services that are normally available 
to students that attend schools elsewhere. For example, access 
to teachers to serve students with special needs is very 
limited, and road and weather conditions can often further 
reduce teachers' abilities to reach the park. Subjects such as 
band, art, music, choir, or even physical education are 
provided only if the parents are able to find additional 
funding or to hire an aide. Many facilities are in need of 
repair or do not meet standards.
    Recruitment and retention of employees at Yosemite National 
Park is also adversely affected by the quality of park schools. 
Many highly qualified NPS employees with school-age children 
who might otherwise be interested in applying for jobs at 
Yosemite are discouraged from doing so because of the school 
situation. Recently, a highly qualified individual declined to 
accept an offer for a division chief position at the park after 
realizing that the schools did not meet the special needs of 
his child. Park employees often cite the schools as a major 
factor in their decision to transfer from Yosemite to other 
assignments.
    The Department has a number of specific concerns regarding 
the bill. First, the legislation provides for an inappropriate 
use of recreation fee receipts. In addition, we believe that 
funds made available to the park for flood recovery should not 
be made available for purposes of this legislation. We suggest 
that the bill be amended to provide only for the general upkeep 
and maintenance of school facilities, not new construction.
    Second, the bill allows the Secretary to adjust payments if 
funding from the State of California or local school districts 
is reduced. In order to clarify that payments made by the 
Secretary are intended to supplement, not replace the funding 
provided by the State, we would suggest that this section be 
amended and would be happy to work with the Committee.
    And finally, the bill authorizes the Secretary to enter 
into cooperative agreements with the State or local school 
districts, and we believe that this authority should be limited 
to circumstances in which the Secretary concurs in the opinion 
that educational facilities and services cannot reasonably be 
provided by the State of California or the local school 
districts that serve the park. Absent this limitation, the 
legislation would, in effect, provide an incentive for local 
school districts to cease operating the Yosemite schools, even 
if they could reasonably continue to staff them.
    We believe this legislation is a good start at providing 
the means to improve the schools in Yosemite National Park and 
look forward to working with the Committee on identifying an 
appropriate funding source and clarifying the role of the 
Secretary.
    Mr. Chairman, this concludes my remarks and I will be happy 
to answer any questions that you or the members may have.
    [The prepared statement of Mr. Mihalic follows:]

  Statement of David Mihalic, Superintendent, Yosemite National Park, 
                   National Park Service on H.R. 3421

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on H. R. 3421. This bill would authorize 
the Secretary of the Interior to provide supplemental funding and other 
services and facilities that are necessary to assist the State of 
California or local school districts in providing educational services 
and facilities for students attending schools located within Yosemite 
National Park.
    While the Department believes that students who attend schools in 
Yosemite National Park should have access to the same educational 
services and facilities found elsewhere in the State of California, we 
are concerned over the source of funds identified to accomplish the 
purposes of the bill, as well as other provisions in the bill. We would 
welcome the opportunity to work with the Committee to identify an 
appropriate source of funds, and to clarify certain provisions, but 
cannot support the bill in its current form. The Administration is 
generally concerned about the notion of diverting limited park funds to 
what is essentially a State responsibility. We do not want this to set 
a precedent that parks should take over responsibility for schools or 
create an NPS school system.
    Schools have been located within Yosemite National Park for over 
125 years to serve the needs of park employees and their children. At 
present, two elementary schools are located within the park at Wawona 
and in Yosemite Valley. A third elementary school and a small high 
school are located in El Portal, the park's administrative site located 
on Federal property just outside the park boundary. Most students 
attend the larger county high school in Mariposa because of the lack of 
opportunity for a comprehensive program at the El Portal school.
    The Yosemite Valley School has about 46 students in grades 
kindergarten through eighth grade, divided into three classes. The 
amount of funding from the State of California, according to a formula 
based on average daily attendance, actually supports only two teachers, 
but a third is funded by a one-time special grant from the U.S. 
Department of Education.
    The elementary school in El Portal has 50 students in seven grades, 
divided into multi-graded classrooms. The Wawona school is like the old 
``one-room'' schoolhouse, with 20 children in grades K-S, and one 
teacher. Because the current funding formula provides for only one 
teacher, and the maximum teacher/student ratio has been reached, the 
school is unable to serve more than 20 students. Consequently, there 
have been instances in which parents were left with the choice of 
either home-schooling their children or transporting them on their own 
to schools elsewhere. Some parents have elected these options 
voluntarily because of the conditions at the Wawona school.
    Because the schools in the park are located long distances from the 
administrative offices of their school districts, there has been 
limited access to services that are normally available to students that 
attend schools elsewhere. For example, access to teachers to serve 
students with special needs is very limited, and road and weather 
conditions can often further restrict teachers' abilities to reach the 
park. Subjects such as band, art, music, choir, or even physical 
education are provided only if parents are able to find additional 
funding to hire an aide. Many facilities are in need of repair or do 
not meet standards.
    While teachers at the Yosemite schools are as committed as teachers 
anywhere else, the quality of education that students receive in these 
schools suffers as a result of lack of funding and staffing. For 
example, teachers who teach only one grade level can focus on 
curriculum and standards for that grade, while teachers in the Yosemite 
schools must spread their time and energy across multiple grade levels. 
In addition to their educational duties, they must also tend to 
administrative duties normally performed by other employees. As a 
result, despite their best efforts, teachers at the Yosemite schools 
are unable to give the time or attention necessary to provide the 
quality of education that the students deserve.
    Recruitment and retention of employees at Yosemite National Park is 
also adversely affected by the quality of the park schools. Many highly 
qualified NPS employees with school age children who might otherwise be 
interested in applying for jobs at Yosemite are discouraged from doing 
so because of the school situation. Recently, a highly qualified 
individual declined to accept an offer for a division chief position at 
the park after realizing that the schools could not meet the special 
needs of his child. Park employees often cite the schools as a major 
factor in their decision to transfer from Yosemite to other 
assignments.
    The Department has a number of specific concerns regarding this 
bill. First, the legislation provides for an inappropriate use of 
recreation fee receipts, particularly since it has no connection to the 
benefits provided to the visitors who are paying the fee. In addition, 
we believe that any funds made available to the park for flood recovery 
should not be available for purposes of this legislation, nor should 
the bill authorize the use of Federal funds for facility construction. 
We suggest that the bill be amended to provide only for general upkeep 
and maintenance of school facilities, not new construction.
    Second, the bill allows the Secretary to adjust payments if funding 
from the State of California or the local school districts is reduced. 
In order to clarify that payments made by the Secretary are intended to 
supplement, not replace, the funding provided by the State or local 
school districts, we would suggest that this section be amended, and 
would be happy to work with the Committee to develop the appropriate 
language.
    Finally, the bill authorizes the Secretary of the Interior to enter 
into cooperative agreements with the State of California or local 
school districts for the operation, expansion, or construction of 
schools located within or near the park at Federal expense. We believe 
that this authority should be limited to circumstances in which the 
Secretary concurs in the opinion that educational facilities and 
services cannot reasonably be provided by the State of California or 
the local school districts that serve the park. Absent this limitation, 
the legislation would, in effect, provide an incentive for the local 
school districts to cease operating the Yosemite schools, even if they 
could reasonably continue to staff and fund them.
    While we strongly believe that the responsibility for providing 
educational services rests with the State of California, we realize 
that the quality of education received by the children of park 
employees and others who attend the Yosemite schools is dependent on 
the resources of the local school districts. We believe that this 
legislation is a good start at providing the means to improve the 
schools in Yosemite National Park, and look forward to working with the 
Committee on identifying an appropriate funding source and clarifying 
the role of the Secretary in assisting the State of California and the 
local school districts with providing educational services and 
facilities at the park.
    Mr. Chairman, this concludes my remarks. I would be happy to 
respond to any questions that you or any members of the Subcommittee 
may have.
                                 ______
                                 
    Mr. Mihalic. And then on the--
    Mr. Radanovich. Go ahead. Please continue.
    Mr. Mihalic. And then on the Golden Chain Highway bill, I 
will summarize my remarks and ask that the full statement be 
made a part of the record.
    Mr. Chairman, thank you for the opportunity to present the 
Department of Interior's views on H.R. 3425. The Department 
supports this legislation but will not consider requesting 
funding for the study in this or the next fiscal year so as to 
focus available time and resources on completing previously 
authorized studies. As of now, there are 41 authorized studies 
that are pending and we only expect to complete a few of those 
this year. We caution that our support of this legislation 
authorizing a study does not necessarily mean the Department 
will support designation of a National Heritage Area.
    The study would be done in consultation with affected local 
governments, the State of California, State and local Historic 
Preservation offices, community organizations, and the Golden 
Chain Council.
    Highway 49 traverses the area where gold was discovered and 
mined during the California gold rush and passes through the 
heart of an area that includes communities with many gold rush 
related structures and sites. The discovery of and search for 
gold in California transformed the nation. The discovery of 
gold brought California into the United States as the 31st 
State and it prepared the way for the United States to span the 
width of North America and accelerated the exploration and 
settlement of the American West.
    The National Park Service has had some inquiries in the 
past year from Historic Preservation groups, nonprofit 
organizations, and business groups seeking additional 
information about Heritage Areas in general and a possible 
Highway 49 Heritage Corridor. A study of the area would allow a 
determination of the level of support that might exist in the 
area and would help identify further protection and 
preservation options.
    Mr. Chairman, this concludes my prepared remarks and I will 
be pleased to answer any questions you or members of the 
Committee may have.
    Mr. Radanovich. Thank you very much, Mr. Mihalic.
    [The prepared statement of Mr. Mihalic follows:]

  Statement of David Mihalic, Superintendent, Yosemite National Park, 
                   National Park Service on H.R. 3425

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H. R. 3425. This bill would 
authorize the Secretary of the Interior to study the suitability and 
feasibility of establishing Highway 49 in California, known as the 
``Golden Chain Highway'', as a National Heritage Corridor.
    The Department supports this legislation, but will not consider 
requesting funding for the study in this or the next fiscal year so as 
to focus available time and resources on completing previously 
authorized studies. As of now, there are 41 authorized studies that are 
pending, and we only expect to complete a few of those this year. We 
caution that our support of this legislation authorizing a study does 
not necessarily mean that the Department will support designation of 
this National Heritage Area. The Administration is determined to 
eliminate the deferred maintenance backlog in national parks, but the 
costs of new parks or other commitments, such as grants for new 
National Heritage Areas, could divert funds from taking care of current 
responsibilities. Furthermore, in order to better plan for the future 
of our National Parks, we believe that any such studies should 
carefully examine the full life cycle operation and maintenance costs 
that would result from each alternative considered.
    H. R. 3425 requires the National Park Service to complete a special 
resource study on the national significance, suitability, and 
feasibility of establishing Highway 49 in California as a National 
Heritage Corridor. The study would be done in consultation with 
affected local governments, the State of California, state and local 
historic preservation offices, community organizations, and the Golden 
Chain Council.
    The bill would require the study to include an analysis of the 
significance of Highway 49 in California from the city of Oakhurst in 
Madera County to the city of Vinton in Plumas County. The study would 
examine the lands, structures, and cultural resources within the 
immediate vicinity of the highway, options for preservation and use of 
the highway, and options for interpretation of significant features 
associated with the highway. The bill would also require the study to 
examine alternatives for preservation of these resources by the private 
sector.
    Highway 49 traverses the area where gold was discovered and mined 
during the California Gold Rush, and passes through the heart of an 
area that includes communities with many Gold Rush-related structures 
and sites. It is the principle route of travel linking these major Gold 
Rush sites, and provides access to numerous State Historic Parks and 
museums related to the Gold Rush.
    The discovery of and search for gold in California transformed the 
nation. ``Gold fever'' was a national experience, spreading throughout 
the country and the world and precipitating a massive migration to 
California. The discovery of gold brought California into the United 
States as the 31st state, preparing the way for the United States to 
span the width of the North American continent, and accelerating the 
exploration and settlement of the American West. Legends and literature 
have expanded the reach of the Gold Rush story, through the work of 
nationally significant writers such as Mark Twain and Bret Harte.
    The area along Highway 49 retains many Gold Rush-era resources, 
including two National Historic Landmark Districts in the towns of 
Columbia and Coloma, and numerous properties and districts that are 
included on the National Register of Historic Places. The State of 
California has recognized the significance of this area through the 
establishment of several State Historic Parks and mining museums, and 
designation of Highway 49 as a State heritage corridor and a State 
scenic highway. Many of the towns along Highway 49 retain much of their 
historic integrity, and have sought to preserve and promote their Gold 
Rush history.
    As we have testified previously before this Subcommittee, there are 
several steps we believe should be taken prior to Congress designating 
a national heritage area to help ensure that the heritage area is 
successful. Those steps are:
    1. Lcompletion of a suitability/feasibility study;
    2. Lpublic involvement in the suitability/feasibility study;
    3. Ldemonstration of widespread public support among heritage area 
residents for the proposed designation; and
    4. Lcommitment to the proposal from the appropriate players which 
may include governments, industry, and private, non-profit 
organizations, in addition to the local citizenry.
    The National Park Service has had some inquiries in the past year 
from historic preservation groups, non-profit organizations, and 
business groups seeking additional information about heritage areas in 
general and a possible Highway 49 Heritage Corridor. A study of the 
area would allow a determination of the level of support that might 
exist in the area and would help identify further protection and 
preservation options. A critical element of the study will be to 
evaluate the integrity of the resources and the nationally distinctive 
character of the region before recommending national heritage area 
designation.
    We would suggest a technical amendment to clarify that the city of 
Vinton is located in Plumas County.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or other members of the 
Subcommittee may have.
                                 ______
                                 
    Mr. Radanovich. I would like, if there is no objection from 
the Committee, to defer the first questions regarding Virginia 
Key to Mrs. Meek. Carrie, if you would like to begin that, that 
would be great.
    Mrs. Meek. Thank you very much, and thank you, member of 
the National Park Service.
    I am a little concerned and also disappointed with the 
National Park Service looking at a paucity of historical civil 
rights parks that the Service would not sooner than now 
recognize that this is a need in this country, to try and have 
this open so that all members of this country will understand 
the history of this country, and another civil rights park 
would mean quite a bit toward that goal, it would appear to me.
    I pretty much know the history of the Park Service, having 
served on your board for many years. I am yet to understand why 
you would need a study from the Congress to impose upon you to 
do such a study. It would appear to me that you would want to 
do this and it would be one of your requests that you would 
give to this Committee sooner than now.
    I would ask you to give me some rationale as to why it is 
so late in terms of your history to request this, not only not 
to request it, but to indicate that you would not want such a 
study done until 2005, and then knowing that you are already 
falling some odd studies behind, that this becomes a part of 
antiquity before such a study is made and before such a park is 
built.
    I think the Service needs to come up more or less to date 
with what is going on in America today, to look at the 
population. Look at the ethnicity of people who attend your 
parks and you will notice that very few Hispanics, very few 
blacks, very few Asians. This is your new population. You are 
not back in the 1960's and 1970's, as when I served on your 
commission. You are now in the 1980's and the 1990's and 2000's 
and I am just hoping the Service would come to that point.
    So my question is, when will the Park Service begin to look 
at these kinds of things and make recommendations on its own to 
the Congress for such an advancement?
    Mr. Mihalic. Mrs. Meek, I very much appreciate your remarks 
and I think that the Department's position on this should not 
be construed as having anything to do with the merits of this 
particular bill in terms of the civil rights nature. We are 
presently engaged in a theme study, as I am sure you are aware, 
on civil rights actions and that has resulted in a number of 
other areas already, the Selma Bridge, for example, and 
Tuskeegee Airmen and Brown v. Board of Education in Kansas, and 
those sites have come into the system.
    I believe that in this particular instance, the date is 
merely predicated on the fact that we have so many other 
requests from Congress to do other studies. I do not think it 
has anything to do with the merits of the study for Virginia 
Key Park.
    Mrs. Meek. If I may go a little further, Mr. Chairman, I 
appreciate that particular answer and I am sure it is a valid 
one. Yet, on the other hand, among all the studies that you 
have, it appears that the Service should look at the 
methodology by which you are conducting these studies to see 
that, after all of these years, you have been unable to catch 
up. That, to me, would be a mandate for the Service, to look at 
some means of changing your methodology so you could not only 
do the studies, but if you do not do the studies, find some 
other methodology to determine how you are going to face that. 
That is all I need to say, Mr. Chairman.
    Mr. Miller. Thank you.
    Mrs. Meek. Thank you so much.
    Mr. Radanovich. Thank you, Ms. Meek.
    Mrs. Meek. Thank you.
    Mr. Radanovich. Mrs. Christensen?
    Mrs. Christensen. On H.R. 3421, is Yosemite National Park 
unique in having employee children attend the local schools?
    Mr. Mihalic. I believe it is unique in that there are only 
a handful of parks that have schools within the park, and in 
Yosemite's case, while there are some parks that have one 
school within the park, in Yosemite's case, it actually has 
three elementary schools and a small high school located at 
Wawona in Yosemite Valley inside the park, and then at El 
Portal administrative site, which is on Federal land just 
outside.
    Mrs. Christensen. In your statement, you had said that 
there were several provisions that needed to be clarified. Are 
you talking about the fact that there should be supplemental 
funding and that the funding for the school should not come out 
of the fee program? Are those the clarifications? You said 
there were certain provisions that needed to be clarified 
within the bill. What were those?
    Mr. Mihalic. I believe it was the funding source, and then 
also to ensure that the money was intended to supplement funds 
provided by the State or local school districts, and then also 
to ensure that the Secretary would not be in a position of 
determining whether schools were adequate, but would concur in 
the opinion of school districts in the State of California. It 
was to clarify the Secretary's role.
    Mrs. Christensen. What would, if you know the answer to 
this, what is the expected annual contribution of funds to 
these particular schools?
    Mr. Mihalic. Right now, there are some who feel that it 
would be on the order of a couple of hundred thousand dollars a 
year per school. The schools range in size from one of the 
schools with 20 students but nine grades, K through eight, 
literally the one-room schoolhouse, up to the two elementary 
schools have about 50 students each. They are right at the 
point where less than 50 students, they only have two teachers 
for multiple grades. Over 50 students, they can get a third 
teacher.
    But the situation is such that many people have either 
chosen to home school their children or to take their kids out 
of school and drive them someplace else because it is very 
difficult. The teachers are committed, and try as they might, 
it is difficult for teachers to meet present day standards for 
three, four, or even eight grades and really give the kids, the 
students, the attention they deserve.
    Mrs. Christensen. I can imagine. Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Mrs. Christensen.
    Mr. Souder?
    Mr. Souder. Having visited Yosemite, I certainly see the 
pressures on Yosemite's school system. Grand Canyon has a 
similar school similarly a long way from the entrance, 
particularly as we have dropped the speed limits into the 
center of the parks, for justifiable reasons, it takes longer 
to get to the center of those parks. Yellowstone would have 
similar. I do not know whether Mesa Verde has a school, but 
certainly all their Park Service housing is somewhere between 
45 minutes and an hour from the edge of the park.
    One thing you can immediately see if you would go through 
Yosemite, Yellowstone, Grand Canyon, and Mesa Verde is that 
many of the pinnacle parks in the Park System that 
superintendents and other people would strive to work at, in 
effect become a limitation on families with children. At the 
same time, this is a difficult question to resolve because this 
becomes ever increasingly expensive when you try to deal with 
IDEA, computer type of things, and I am not sure how we do this 
and I am not necessarily willing to say that all employees 
should be moved out of the heart of the park, which is one of 
the trends, because then you have incredible commuting 
questions in, service questions for the population.
    There is not an easy resolution to this, but I would 
suggest it is not just a Yosemite problem. It is unique because 
of the multiple schools, but my guess is there may be places in 
Alaska, any place there is a big park that is kind of off in 
the pinnacle of the Park System.
    I wanted to share a concern about using demonstration fees, 
which I think are one of the greatest innovations, and part of 
the public support is that they see a reduction in backlog 
maintenance, and to the degree it becomes operating, we are 
going to have some problem sustaining that, which I believe is 
an excellent concept which has enabled us to do much in our 
national parks. And if we are not clear on what that fee and 
how that fee is used, we could get into a real murky situation 
nationally.
    Other than that, it is your district and your important 
problem, but I wanted to share a couple thoughts, that it does 
go beyond your district, too.
    Mr. Radanovich. Thank you very much. And to clarify, the 
issue really is an appropriations issue, much like T-21 was, 
for something like this. The school district is looking for a 
committed stream that may not be subject every year to an 
appropriations. The Appropriations Committees, of course, do 
not like to make commitments beyond 1 year in many cases.
    So we are working with the Department of Interior to 
develop language that we think will work and be 
noncontroversial. It is our desire to create something that we 
could move through on a suspension calendar, meaning that 
everybody would be pleased and happy and supportive of it. So 
we are going to continue our dialog to make sure we can come up 
with that kind of language and, hopefully, take care of the 
education needs of park employees inside the park.
    You mentioned the transportation issues. Of course, in 
Yosemite, nothing is ever very clear. In some cases, it does 
make sense to move people out of the park and transport them 
in, but that does not mean you can move everybody. There are 
some people that should stay in the park and, therefore, have 
educational needs for their kids.
    Yosemite is one of those ideal places where something seems 
simple at first, but the more you get into it, the more 
complicated it is. But it is a beautiful place and we want to 
take care of the people that work there.
    Are there any other questions of Mr. Mihalic?
    [No response.]
    Mr. Radanovich. If not, Mr. Mihalic, thank you so much for 
being here. We appreciate your testimony on all the issues.
    Mr. Mihalic. Thank you, Mr. Chairman.
    Mr. Radanovich. With that, we have a vote going on. It is 
on the Department of Defense authorization conference report. 
It is only one vote, so we are going to recess just for a 
minute and go over and vote and everybody is encouraged to be 
right back here. We will start our third panel. Thank you.
    [Recess.]
    Mr. Radanovich. We are back in session. I would like to 
introduce our third panel. We have Mr. Brian Rooney, who is 
President of RVETS, or Remembering Veterans Who Earned Their 
Stripes, from Northridge, California, to speak on H.R. 2748. We 
also have Mr. Max Stauffer, who is Chairman of the Bass Lake 
School District in Fish Camp, California, and Mr. Kevin Kelly 
is a member of the Mariposa County School Board from Mariposa, 
California, a great place where I happened to be born.
    Welcome, gentlemen. I appreciate your making the trip here 
to Washington to testify on these important bills. What I would 
like to do is have everybody testify on each one and then we 
will open it up for questions. We will begin with you, Mr. 
Stauffer, and if you would like to introduce any support group 
that you have with you, we would be happy to hear about that.

STATEMENT OF MAX STAUFFER, CHAIRMAN, BASS LAKE SCHOOL DISTRICT, 
                     FISH CAMP, CALIFORNIA

    Mr. Stauffer. Thank you, Mr. Chairman. I would like to do 
that. It is an honor to be here today. Thank you for giving us 
the time. The parents in the communities in our school district 
appreciate the time, also.
    At this time, I would like to introduce the teaching 
principal at Wawona, Dr. Michelle Horner. She has been there 
about 21 years. She has expertise in education with the 
countless years she has been at that school. Also, Dr. Pizello, 
who was our superintendent at the Bass Lake School District for 
10 years and now has served us as a consultant for the last 5 
years. He has been very involved in this issue and just really 
cares about kids. They are great people.
    Mr. Radanovich. Great. Thank you.
    Mr. Stauffer. Thank you. They will be available to answer 
any questions. They have tremendous expertise.
    Mr. Radanovich. Max, before you get going, we have got a 
clock here. There is a green light. The yellow light means 
speed up. Red means stop. We would like to hold everybody to 5 
minutes or less on their opening statements. I am not a real 
cop about this thing, but if you can stick within the 5 
minutes, that would be just fine.
    Mr. Stauffer. Sure. The Bass Lake School District serves 
families in the Sierra Nevada Mountain communities of Awani, 
Bass Lake, Oakhurst, Fish Camp, Sugar Pine, and Wawona. The 
district is comprised of six schools with an enrollment of 
1,200 students. Our boundaries stretch over 360 square miles, 
with elevations ranging from 2,000 to 5,000 feet.
    Wawona School, located in Yosemite National Park, is our 
smallest site, with an enrollment of 20 students, many of whom 
are children of National Park and Yosemite concessions 
employees. The school is isolated from the rest of the district 
by over 20 miles of mountainous roads that can be treacherous 
during the winter months. Travel to the district office in 
Oakhurst and back can be an impossible task during heavy snows 
or rain.
    Wawona is a one-room classroom, a school with one teaching 
principal covering seven grade levels, kindergarten through 
sixth. She is an extremely committed and caring individual who 
works tirelessly to provide the best education possible under 
very difficult circumstances. Because of its size and 
geographical location, Wawona School is very difficult to serve 
equitably. Services such as special education, speech services, 
reading remediation, fine arts, foreign language, and library 
services are very limited or not provided at all. While 
students at our other sites have these programs available, 
because of the distance and difficulty of travel, staffing of 
these services is cost prohibitive.
    The Bass Lake School District currently runs Wawona at a 
$100,000 deficit because State funding does not take into 
consideration the uniqueness of its location and multi-grade 
teaching environment. Because the deficit affects the ability 
to provide an education to the other 1,180 students in the 
district, there is pressure from some to close Wawona School. 
This situation is no longer acceptable to the parents or 
trustees serving them. The projected $12.5 billion California 
budget shortfall severely compounds our problem.
    Over the past year, parents, community members, 
administrators, and school board members from both the Bass 
Lake School District and the Mariposa School District have been 
meeting to solve some of the education problems facing the 
schools in the park. Superintendent Mihalic has been very 
helpful and cooperative in our search for solutions. With the 
help of Congressman Radanovich and his staff, we are closer to 
resolving our problems.
    The solution involves a high level of cooperation between 
the two school districts and the Park Superintendent. It 
involves allowing funds from the National Park to be used to 
help improve the educational opportunities for its employees' 
children. Yellowstone Park has a system in place whereby the 
Park Service actually contributes to the school district. 
Similar legislation would allow the Secretary of the Interior 
to enter into voluntary agreements with the two local school 
districts.
    The additional funding provided for within these agreements 
would be used to increase the level of service for special 
education students, help make up the deficit factor that 
impacts other schools in the district, provide for after school 
tutorials, implement reading intervention in the primary 
grades, and implement gifted and talented programs and bring in 
specialists for fine arts, science, and physical education. 
This solution would begin a process to solve educational 
problems that have been in existence for several decades. The 
Bass Lake School District Board of Trustees enthusiastically 
support H.R. 3421.
    Ladies and gentlemen, this issue is not about inflating 
school bureaucracy, nor is it about increasing teacher 
salaries. This issue is about equity. It is about the kids in 
Yosemite. They deserve a quality education. We respectfully ask 
for your support of H.R. 3421. Again, thank you.
    [The prepared statement of Mr. Stauffer follows:]

  Statement of Max Stauffer, President, Board of Trustees, Bass Lake 
                 Joint Union Elementary School District

    The bill before you addresses identified needs of students 
attending schools created to educate children of Yosemite National Park 
employees, concessionaire employees, and families living within and 
adjacent to the boundaries of the Yosemite National Park. Because of 
the size of the schools, the placement of those schools, and the 
methods of funding for all schools within the state of California, 
there have been many parents who feel that students within those 
schools are at a disadvantage. Simply put, state funding of very small 
schools has been inadequate. This problem has been facing Yosemite for 
decades. Turnover in park management, school board membership, and 
parents within the schools have worked against addressing those 
problems.
    Parents, community members, administrators, and school board 
members from both the Bass Lake School District and the Mariposa School 
District have been meeting to solve some of the educational problems 
attendant to the schools located in the Yosemite National Park. The 
park superintendent has been kind enough to work with these people to 
help find solutions. In that vein we have been working with Congressman 
Radanovich to address our needs. A brief description of the problems is 
delineated below.
    The Bass Lake Joint Union Elementary School District is one of two 
districts tasked with providing educational opportunities for the 
children of Yosemite Park employees and the employees of 
concessionaires within the Park. The Wawona School comprises 
approximately 1.6% of the total enrollment of The Bass Lake School 
District. The Mariposa Unified School District is the other school 
district serving Yosemite National Park. The El Portal and Yosemite 
Valley Schools constitute approximately 3.8% of the enrollment of the 
Mariposa Unified School District. While both school districts have 
dedicated a far greater percentage of the total district budget to 
service the children of park children than is generated, the nature of 
the schools and where they are placed creates severe problems in terms 
of equitable educational opportunity.
    For instance, Wawona School, with 20 children, has a need for 
special education services for one and sometimes two students. Children 
with special needs in other schools receive daily attention for half an 
hour at a time and the district is able to do that because there are 
enough children to warrant having a full time teacher at a site. There 
are not enough children with need at Wawona to justify a full time or 
even half time teacher for the site. The distance to Wawona and the 
travel time necessary to bring a teacher from a population center to 
Wawona during inclement weather, however, make it impossible to hire an 
employee for part time work. No one is willing to commit to that travel 
for the small amount of available work time. Similarly, it is 
impossible to take time from another employee and assign that person to 
Wawona because much of their available work time would be dedicated to 
travel. The financially driven solution then is that the students with 
need only receive services once per week rather than on a daily basis. 
This is not an educationally acceptable solution. Similar problems 
occur in the areas a specialty reading problems, speech and hearing 
needs, music, after school tutoring, 1st grade reading intervention, 
and a myriad of other programs generally available to most students. 
The Mariposa School District faces the same difficulties. The Bass Lake 
School District currently runs that school at over a $100,000 per year 
deficit because of the size and distance factors. Because the deficit 
affects the ability to provide an education to the other 1180 students 
in the district, there is pressure to close the school. This in, turn, 
would exacerbate the problem of educational quality for National Park 
families.
    As budget restrictions have become more and more common, it has 
become more difficult to justify the current level of expenditures even 
though educational opportunity equity might demand an increase in 
funding. The State of California has gone from having a 12 billion-
dollar surplus to a 12 billion-dollar deficit in the last six months.
    The two districts have been working with the parents, the school 
boards of the two districts, the administrations, and the 
representatives from the National Park Service to cooperatively find 
solutions to the educational and fiscal difficulties that the districts 
confront. It has been gratifying to see such a large group of people, 
with such diverse interests, come together for a common cause. It 
appears that, through the diligence of David Mihalic (the Yosemite 
National Park Superintendent) and the parents and community members 
within and adjacent to Yosemite National Park, a set of solutions may 
be possible.
    It is important to note that both the Mariposa and the Bass Lake 
School Districts have made tremendous efforts to solve the funding 
problems. They are constrained however, by the budgetary restrictions 
attendant to running larger school districts.
    Recruitment of personnel in Yosemite National Park depends, to some 
degree, on being able to offer a first class education to children of 
those personnel. For this reason it is in the best interest of the 
National Park Service to team up with the parents and the school 
districts. And they have done that.
    The Yellowstone National Park faced similar problems and came up 
with a solution for their problems with specific legislation. (P.L. 80-
604;62 Stat. 338) This legislation allowed Yellowstone to assist in 
providing educational opportunities. Similar legislation would allow 
the Yosemite National Park administration to enter into voluntary 
agreements with the two local school districts. Those agreements would 
be designed to not only assist the school districts with supplemental 
funding but to allow for better educational opportunities. The 
additional funding provided for within these agreements would be used 
to increase the level of service for special education students, make 
up the deficit factor that impacts other schools in the district, 
provide for after school tutorials, implement reading intervention in 
the primary grades, implement gifted and talented programs, and bring 
in specialists for music, science, and physical education. It is our 
understanding that these funding solutions would have no impact on the 
Federal budget because the source of funding comes from existing 
available dollars.
    This solution would begin a process to solve educational problems 
that have been in existence for several decades. Needless to say, the 
Bass Lake School District Board of Trustees and the Mariposa Board of 
Trustees enthusiastically support this legislation.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Stauffer.
    Mr. Kelly, welcome.

STATEMENT OF KEVIN KELLY, MEMBER, MARIPOSA COUNTY SCHOOL BOARD, 
                      MARIPOSA, CALIFORNIA

    Mr. Kelly. Thank you, Mr. Chairman, and thank you for the 
opportunity to testify. I am here today to represent my 
interests as it relates to H.R. 3421, and I believe I am in a 
unique position to speak on the need of this bill as I wear 
several hats as it relates to Yosemite National Park and our 
need to provide adequate schools.
    I am a community member of Yosemite National Park. I live 
in the valley with my wife and family. I have three young 
children. One is in kindergarten and one is in the third grade. 
I am on the Board of Trustees for the Mariposa County Unified 
School District and I am also Vice President for Yosemite 
Concession Services, the primary concessionaire in Yosemite 
National Park.
    As a stakeholder in Yosemite, I am concerned at the quality 
of education being afforded our children as compared to other 
schools in our district. Living and working in a national park 
should not come at the sacrifice of our children's education. 
The bill before you will help correct the current inequities 
that exist.
    My school district has many challenges in educating the 
students of Mariposa County. We adhere to a standards-based 
curriculum. We provide transportation services in a large 
mountainous county, and we do this with a limited budget.
    Now, translate the curriculum challenge to my daughter, 
Kaitlyn's, third grade teacher, Susan Lieberman. Ms. Lieberman 
has to prepare two lesson plans every day, one for the five 
third graders and one for the 11 fourth graders in her 
classroom. It takes time, talent, and imagination for a teacher 
to design curriculum for a single classroom containing more 
than one grade. Ms. Lieberman also acts as part-time secretary, 
part-time lunchtime supervisor. She is the nurse, counselor, 
everything, all while preparing our children for advancement to 
the next grade.
    Our transportation issue are strictly a geography problem: 
Thirteen schools spread over 1,400 square miles in the 
foothills of the Sierra Nevada Mountains and the Yosemite 
schools are located at the end of the trail. This has created a 
challenge for the schools to receive comparable services from 
the district, such as music, science, special needs classes, as 
most of the teaching time is used up in the 2-hour round-trip 
drive to the park.
    Funding for Mariposa County Unified School District is 
based on average daily attendance. This method of funding is 
great for large urban districts that benefit from the 
efficiencies of scale. However, the small rural districts do 
not enjoy the same benefits. To that end, the multi-grade 
elementary schools at Yosemite do not operate efficiently. Our 
schools are small, with less than 50 children, and we are 
located an hour from the district office and support services.
    The schools exist because Yosemite National Park exists. 
The National Park and its contractors in Yosemite require many 
of their employees to live in the park to meet the mission of 
the agency, and that is to preserve and protect the park and to 
provide services for park visitors. We are in a very 
competitive market for quality employees. No longer is income 
the deciding factor in accepting a job. Quality goods and 
services available in the community is extremely important to 
the recruitment and retention of employees in Yosemite, and 
schools are at the top of their list.
    The needs are clear and the opportunity is now, and I 
believe the bill before you is the vehicle to establish equity 
for our children. The use of park entrance fees seems 
appropriate. The children of Yosemite have accepted their roles 
as stewards of the park. They have a recycling program, a 
docent program. They developed their own guide for other 
schools who visit the park.
    Yosemite National Park has programs for visiting schools, 
where hundreds of schools and thousands of children participate 
in the Yosemite experience. These visiting schools do not pay 
entrance fees. In essence, you are giving them the value of the 
entrance fee. All we ask is that you give the school children 
of Yosemite National Park the same consideration and not 
penalize them for living in and caring for Yosemite National 
Park. Thank you.
    Mr. Radanovich. Thank you very much, Mr. Kelly.
    [The prepared statement of Mr. Kelly follows:]

   Statement of Kevin T. Kelly, Member, Board of Education, Mariposa 
                     County Unified School District

    Thank you, Mr. Chairman, for the opportunity to testify on this 
important piece of legislation.
    The Mariposa County Unified School District serves thirteen school 
sites spread out over Mariposa County, which encompasses a total of 
1,435 square miles. Three school sites are located in or nearby 
Yosemite National Park. Yosemite Valley Elementary School serves around 
46, K-8 students while El Portal Elementary serves around 47, K-6 
students. A small necessary high school, Yosemite Park High School is 
also located on the El Portal Elementary campus. There has been a long 
tradition of public school education in Yosemite National Park.
    The availability of these schools to the children of Yosemite Park 
employees is very important. Without these schools in place elementary 
age children of Yosemite Park employees would have to travel 61 miles 
roundtrip from El Portal and 92 miles roundtrip from Yosemite Valley to 
attend school in Mariposa. Travel for these students would be over 
curving mountain roads in school buses with numerous changes in 
altitude. It was determined in 1948 to form a unified county system of 
public education in Mariposa County. This decision was determined by a 
vote of the people in order to better distribute the taxpayer's dollar 
with the advantages not offered by any other plan.
    These advantages included at the time:
    <bullet> A basis for county-wide salary schedule for teachers
    <bullet> Greatest flexibility for adjustment to shifts in 
population and wealth
    <bullet> A basis for a single to and from school transportation 
system
    <bullet> The maximum financial support for all children
    <bullet> An equal tax burden for all
    <bullet> A basis for present or future consolidation of attendance 
centers with consideration of health and safety
    <bullet> A basis for lateral and vertical coordination of the 
educational program from kindergarten through the twelfth grade
    <bullet> A basis for the strongest program of vocational education
    Over 50 years later these core values are among the many that 
continue for us today regarding public education in Mariposa County.
    Today, Mariposa County Unified School District remains a small 
county unified district of approximately 2,600 students with no large 
county office to offer support but must face the same challenges and 
responsibilities. More often than not these challenges currently go 
unmet due to a lack of resources. These lack of resources especially 
impact our small multi-graded elementary schools such as El Portal and 
Yosemite Valley Elementary. Supplemental funding is needed to offset 
encroachment on the budget regarding ever increasing special education 
needs, attracting quality teachers through a competitive salary 
schedule, to and from school bus transportation, professional staff 
development, counseling, fine arts instruction, nursing care, 
psychological services, gifted and talented education, improving 
technology, maintenance and utility costs.
    Compounding these challenges is a need to provide a rigorous 
standards based education to the children of the above mentioned 
schools. Teachers in these multi-graded schools must not only deal with 
designing standards based lessons to one specific grade level, they are 
often faced with the task of designing lessons to meet the needs of two 
or three grade levels. A reduction in staff at Yosemite Valley School 
from the current staff of three teachers to two teachers next year 
would severely reduce the amount of time teachers could focus on 
delivering an adequate amount of instruction specifically focused on 
individual grade levels.
    In the past many students had been ``promoted'' automatically to 
the next grade level. This past practice is no longer acceptable as the 
Mariposa County Unified School District has raised the bar by having in 
place promotion and retention standards. Students who meet these 
standards will be promoted to the next grade level. Students who do not 
meet these standards will be retained. Two teachers at the Yosemite 
Valley Elementary School will certainly not be as effective as having 
three teachers available, through supplemental funding, to assist in 
meeting the needs of students who are at risk of not being promoted.
    As noted above, students in small rural schools such as Yosemite 
Valley Elementary and El Portal Elementary are faced with being placed 
in double or at times triple graded classes each year. These students 
can be at a distinct disadvantage compared to their peers at larger 
schools because they do not receive the same amount of direct grade 
level instruction. Special incentives through supplemental funding are 
needed for multi-graded staff development opportunities and additional 
instructional aides to support teachers in these small extremely rural 
schools.
    There is often a reduced amount of categorical funding available at 
schools with small enrollments simply because family incomes are not 
necessarily always at or below the Federal free and reduced lunch level 
needed for a school to qualify.
    It is not unusual to find, in small rural school settings such as 
Yosemite Valley and El Portal, families where both parents are college 
educated and have high skill/high wage employment. Children of such 
families often have the benefit of quality preschool education and 
special educational enriching activities prior to entering 
kindergarten. These students are primed for academic success in school 
and often have the talents to qualify for such programs as gifted and 
talented education (GATE). However, it is often difficult for a teacher 
with multiple grade levels, who is stressed for time, to give adequate 
attention to his or her GATE students without additional staffing 
support. The special needs of the low achieving students, as noted 
previously, tend to be given a higher priority than those of the GATE 
students. Supplemental funding for gifted and talented education is of 
critical importance to the children of Yosemite Valley Elementary, El 
Portal Elementary, and Yosemite High Schools. We need to invest soundly 
in our brightest students at the same time we are striving to close the 
achievement gap between our lowest achieving and highest achieving 
students.
    Education reforms require schools to utilize new teaching and 
learning styles, which include the need for laboratory classrooms and 
flexible areas for instruction. A U.S. General Accounting Office 1995 
study noted that rural schools nation-wide have inadequate science 
laboratory facilities in 37% of their schools. Rural schools nation-
wide note that 40% of their schools have inadequate space for large--
group instruction and 13% report inadequate library/ media centers. 
Supplemental funding is crucial to provide new facilities/equipment and 
maintenance of current facilities/equipment in these three schools.
    Dr. W. Edwards Deming, noted that quality is built into a product. 
Quality cannot be added on at the end but must be something integral to 
the product or result--such as our high school graduates. If we in 
education are to have continuous comprehensive improvement of effective 
curriculum and instructional strategies, we must build quality into 
sustained, meaningful staff development. This staff development is even 
more critical for our teachers who must teach in a multi-graded 
classroom setting due to limited resources. The task of organizing 
accountability assessment data with multiple measures aligned to multi-
grade level standards can be accomplished in large measure only by 
teachers and school site teacher/principals given supplemental funding 
to purchase the right training and tools. This action can place 
responsibility in the hands of our teachers who are closest to the most 
important activity of the educational enterprise, quality instruction.
    We have the passion and the commitment to move further into an era 
of raising the academic bar higher for all of our students. Our 
resources are limited and an ever-increasing encroachment on these 
resources threatens our ability to deliver the quality of instruction 
we desire. Therefore, it is paramount that supplemental funding for 
Yosemite Valley Elementary, El Portal Elementary and Yosemite Park High 
School be considered at this time.
    All of our roads in education must lead to quality instruction.
    Thank you for the opportunity to speak on this critical issue. I 
would be happy to answer any questions you or any of the Members have.
                                 ______
                                 
    Mr. Radanovich. Now on another bill, H.R. 2748, I want to 
introduce Mr. Rooney. Thank you for being here and please begin 
your testimony on the veterans' monuments issue.

   STATEMENT OF BRIAN ROONEY, PRESIDENT, RVETS (REMEMBERING 
   VETERANS WHO EARNED THEIR STRIPES), NORTHRIDGE, CALIFORNIA

    Mr. Rooney. Thank you, Mr. Chairman and Congresswoman 
Christensen. I want to start by saying that the Department's 
representative is a typical reaction that I get. It was my 
first reaction when I began this project 6 years ago. I want to 
remind the Committee that we are not talking about concrete and 
brass but we are talking about real live people.
    In fact, this project started 31 years ago on a medevac 
helipad in Vietnam when I, as an Army medic, was triaging the 
wounded. I noticed a GI that was well beyond my help and 
unconscious. I leaned over his body to get his name, and as I 
did, he grabbed my shirt, opened his eyes, pulled me toward 
him, and whispered, ``Remember me.'' The face of that soldier 
has haunted me these 31 years. In fact, I live with the memory 
of the faces of dying soldiers.
    To honor those memories, I created the ``Remember Me'' 
project, which is intended to catalog and monitor the condition 
of every tribute to armed conflict in the United States. I am 
also the founder of RVETS, which is a nonprofit disabled 
veterans' organization.
    Since 1996, RVETS has identified and cataloged more than 
8,600 tributes to the service of our armed forces throughout 
the United States. Our goal is to verify, research, and make 
available especially the story of every person behind every 
memorial.
    In the beginning, RVETS consisted of my family and me. In 6 
years, I have mailed out about 30,000 letters to every 
municipality and city in the United States, as well as 
veterans' organizations and patriotic organizations inquiring 
about their local memorials. Our home has become a 
clearinghouse for memorials from every corner of America. My 
kids do not know what it is like to sit down at dinner without 
a stack of envelopes and stuff. The fax machine in our home has 
not stopped ringing for 5 years.
    But over those years, the RVETS group has evolved to a 
confederation of over 1,000 people worldwide who all share the 
same goal in mind, that the memory of those who fought for our 
freedom would not be lost. Unfortunately, many of those 
tributes are in a sad state of disrepair and lost, but it is 
not the tribute that is lost, it is the stories that are lost, 
stories that our children ought to hear.
    For example, one of the virtually millions of stories is 
the Henry Johnson story. He was an African American soldier in 
World War I who, while on guard duty in France, was attacked 
and overrun by a group of Germans. The Germans shot Henry and 
carried off his friend, Private Roberts, for interrogation. 
Henry awoke a few moments later to find himself wounded 21 
times. Yet he got up and lit out after the Germans and single-
handedly attacked them. He killed several of them with his 
rifle, several more with his bayonet, and several more with his 
service knife. The rest of the troop ran off.
    Henry then picked up his comrade and carried him back to 
his medics. Although wounded 21 times, Henry still went back to 
his post and served our his remaining 6 hours of guard duty 
until relieved, and then sought medical attention for himself. 
Henry was the first American ever to win the Quadigere Francis 
Hyas Award for Valor. That Henry Johnson memorial stands in 
Albany, New York.
    Other tributes are not so lucky. In Ione, California, there 
stood an honor roll with the names of casualties of World War I 
and II. The plaque hung on the side of city hall until the 
building was sold in the early 1950's. Local newspaper articles 
chronicled the movement of the memorial from place to place 
until it was simply lost. That tribute to those brave soldiers 
and their stories that it memorialized are lost forever.
    RVETS has taken just the first steps toward a larger effort 
to tell stories behind every tribute to ensure that no more are 
lost. Congressman Dreier introduced H.R. 2748 to help RVETS in 
our work and to authorize the programs supported by the 106th 
Congress, which on June 26 of last year passed House Concurrent 
Resolution 345, introduced by then-Congressman Jim Rogan. That 
resolution identified a debt of gratitude owed to veterans for 
their sacrifices in defending our nation during times of war 
and peace. It called upon the Department of the Interior to 
create and maintain a data base of permanent tributes to the 
armed forces.
    The House Committee on Resources passed the resolution by 
unanimous consent and the House passed it by voice vote. It was 
ultimately added to then House Senate Majority Leader Tom 
Daschle's S. 964 and was signed into law on November 13, 2000. 
H.R. 2748 would honor the commitment made by the 106th Congress 
to our veterans by authorizing the program.
    As President Bush said on the 3-month anniversary of the 
attack on the World Trade Center and the Pentagon, memorials 
are something we can show our children as yet unborn to help 
them understand. America owes a debt to those who have fought 
and died for our liberty. So with your support, we can make the 
data base a reality and ensure that no more tributes to those 
sacrifices are lost. With your help, H.R. 2748 will enable us 
to pay that debt.
    Mr. Chairman, I would like to introduce my two boys that 
traveled from California to be with me, Damon and my son Noah, 
who is an expert letter stuffer. Thank you so much.
    Mr. Radanovich. Thank you very much, Mr. Rooney.
    [The prepared statement of Mr. Rooney follows:]

           Statement of Brian Rooney, President, RVETS, Inc.

Introduction
    Chairman Radanovich, Congresswoman Christian-Christensen, Members 
of the Subcommittee:
    My name is Brian Rooney. I am a high school teacher in the Los 
Angeles Public Schools system. I am also the founder of a nonprofit, 
disabled-veterans organization named RVETS, Inc. (Remembering Veterans 
Who Earned Their Stripes) and the creator of the ``Remember Me...'' 
project, intended to catalog and monitor every tribute to armed 
conflict in the United States. Thank you very much for inviting me to 
testify today on Chairman David Dreier's National War Permanent Tribute 
Historical Database Act (H.R. 2748). I am greatly honored to be before 
the Subcommittee.
    Since 1995, RVETS has researched, identified, and cataloged more 
than 8,600 tributes to the service of the Armed Forces of the United 
States of America. Our vision is to make available information about 
the location, history, and story behind each of the nation's tributes. 
In the process, we have found that, sadly, many of the physical 
tributes have already been lost and with them their stories of courage 
and patriotism.
    At today's hearing, I hope to leave you with three points:
    1. Our nation's tributes to America's Armed Forces are at grave 
risk of being lost;
    2. Veterans and community organizations have begun to work to 
catalog, monitor, and preserve our tributes; and
    3. The Federal government can assist our efforts with legislation 
like Chairman David Dreier's National War Permanent Tribute Historical 
Database Act (H.R. 2748).

Tributes to Patriotism
    Courageous men and women have fought and died for this great 
country from before the signing of the Declaration of Independence to 
today's War on Terrorism. We are approaching close to one million dead 
who gave their lives to preserve freedom. To commemorate their service, 
states, counties, cities, and towns across America have erected 
tributes to the heroism of these patriots of freedom. While those 
memorials were intended to be permanent, many are lost every year. Some 
are lost to neglect, others to vandalism, some to redevelopment, and 
some to apathy. RVETS has worked for more than six years with the goal 
of first cataloging the tributes, then monitoring the condition of the 
monuments, and ultimately to tell the story of each and every hero 
represented on the tributes.
    On this Subcommittee sit representatives from California, the 
Virgin Islands, Michigan, Tennessee, American Samoa, Colorado, New 
Jersey, Maryland, New Mexico, North Carolina, Texas, Utah, 
Massachusetts, Puerto Rico, Nevada, Indiana, Minnesota, and Idaho. 
RVETS has located a total of 3,149 tributes from these states alone. 
With the help of this Subcommittee and the Administration, RVETS and 
other veterans and community organizations will be able to continue our 
work to produce a comprehensive catalog of the permanent tributes in 
America to the defenders of freedom, and stem the loss of any more 
symbols of our heritage.
    The risk of losing these memorials is real. For example, the mining 
town of Hiawatha, Utah had a World War I and World War II memorial. In 
1989 the mine closed, and the town was abandoned. Fortunately, the 
tribute was relocated to Price City, Utah, where it stands today.
    Texaco memorialized its employees who gave their lives in World War 
II on a plaque that was displayed at one of its refineries near Los 
Angeles, California. The refinery was closed, and the site demolished. 
An RVETS associate visited the demolition site and noticed the 
tarnished plaque buried in the rubble. He literally pulled this tribute 
to American heroes from the junk heap. I am happy to report that this 
is one story with a happy ending. The beautifully restored plaque now 
hangs prominently in Patriotic Hall in Los Angeles, California.
    These tributes are the lucky ones. They were saved so that the 
stories behind these tributes are not lost or forgotten.
    Not every tribute to liberty is so lucky. In the small town of 
Ione, California there stood a four-by-eight foot honor roll with the 
names of the casualties of World War I and World War II. The plaque 
hung on the side of City Hall until the building was sold and the 
offices moved. Local newspaper articles chronicled the movement from 
site to site of the plaque until it was simply lost. That tribute to 
the memory of those brave soldiers of war is lost.
    The process of collecting information about our nation's tributes 
to our patriots began with a vision-- a vision that never again will a 
memorial or permanent tribute be lost or forgotten. The work done by 
RVETS since 1995 is but one step toward a larger effort that will 
enable the public to obtain information about any memorial or tribute. 
It will aid historians in their research about specific conflicts and 
help families seek information about their ancestors. It will rekindle 
a sense of patriotism and encourage every American to reaffirm their 
appreciation of our heritage. As one staff member at the Library of 
Congress said of the project, ``Your work will change for the better 
the way Americans view their country over the next fifty years.''
    Over the years that I have worked on cataloging our nation's 
memorials, I have come to realize that the tributes that we must save 
are more than just lifeless masses of concrete and brass. They need not 
be saved in and of themselves. We must save these memorials because 
each represents a story. Each represents a battle waged by American men 
and women. Each represents the sacrifices of the warriors sent into 
battle in defense of our country. Each represents the prices paid --
many times the ultimate price-- by America's Armed Forces.
    A Texas citizen named Russell A. Steindam, as a 1st Lt. in the U.S. 
Army in the Vietnam War, threw himself on a grenade. He sacrificed his 
life to save his command staff. There is a permanent tribute to him at 
the University of Texas that serves as a reminder of his story to all 
who pass.
    Or the remarkable story of Henry Johnson, an African American 
soldier in World War I, who while on guard duty in France with his 
friend was overrun by a troop of Germans. The Germans shot the two 
soldiers and carried off Henry's friend for interrogation. Henry awoke 
a couple of minutes later to find himself wounded 21 times, yet he lit 
out after the German troop and single-handedly attacked them in their 
trenches. Henry killed six with his rifle, stabbed several more with 
his bayonet, and was engaging others with his knife when the balance of 
the German troop ran off. Henry picked up his wounded comrade and 
carried him back across no-man's-land and delivered him to the medics. 
Although he was wounded 21 times, Henry still went back to his guard 
post and unbelievably finished his guard duty until relieved. The Henry 
Johnson memorial stands in Albany, New York, erected after his death.
    Early in my efforts, I was contacted by a woman who had a picture 
of her father taken in the early 1950s somewhere in the Pacific. Her 
father was standing next to a memorial that bore the name of her 
brother who had been killed in World War II. Her father died shortly 
after the picture was taken. The woman contact me because she wanted to 
make a pilgrimage with her six remaining siblings and their children 
and grandchildren to that memorial. Unfortunately, she knew nothing 
about its location. From the research RVETS had completed at the time, 
I was able to tell her that the site was located on one of the Hawaiian 
Islands. The family, numbering about thirty-five, made the pilgrimage 
to Hawaii, found the memorial, and was able to preserve an important 
link to their family's rich history of service to America.
Veterans and Community Organizations' Efforts
    In 1995, in an effort to assist in the upkeep of veterans' 
memorials in California, I discovered that there was no statewide 
directory of memorials--veterans' or otherwise. I then attempted to 
find California's veterans' memorials in a national directory. None 
existed. I decided that there should be a comprehensive and complete 
list of the permanent tributes throughout this country that have been 
dedicated to the men and women who made the ultimate sacrifice and paid 
the ultimate price for their country.
    Since then, I have worked to build a complete, comprehensive list 
of every tribute to armed conflict in the United States for more than 
six years. I have sent out over 30,000 surveys to veterans' 
organizations and municipal entities throughout the United States. I 
sent a survey to every state, county, city, village, parish, hamlet--
anyone who may have a record of where a tribute was-- in this country. 
The responses I received range from detailed descriptions of tributes, 
including the names and histories of those honored, to ``Yes'' or 
``No.'' To date, I have received more than 10,000 responses, and I have 
identified, even if only preliminarily, more than 8,600 permanent 
tributes honoring military conflicts and those who have served out 
nation in 50 states.
    During this time, I founded Remembering Veterans Who Earned Their 
Stripes (RVETS), a nonprofit 501(c) organization dedicated to creating 
a national directory of veterans' memorials in America and monitoring 
the condition of the tributes annually. To the best of my knowledge, 
this directory is the only one of its kind in the United States.
    Over the years, I have approached and worked with many other 
veterans and community organizations on this project. I have included 
with my testimony examples of support I have received from 
organizations like the Veterans of Foreign Wars, the Minority Officers 
Association, Inc., and the San Gabriel Valley Council of the Boy Scouts 
of America. While RVETS has maintained the lead role in identifying, 
researching, cataloging, and monitoring the nation's tributes to our 
Armed Services, we recognize the important role that Federal assistance 
would play.
    Since 1995, RVETS has been at the forefront of this effort. We 
believe that locating, cataloging, and monitoring permanent tributes-- 
and telling the stories of American heroes--will provide enormous 
benefits not only to the millions of veterans throughout the country, 
but to our young people who can learn about our rich heritage, to the 
senior citizens who remember the sacrifices that they and their 
neighbors made during WWII and the Korean War. And to my generation, 
the Vietnam Veteran, who served proudly and with distinction along with 
the veterans of other conflicts.
Federal Assistance Would Be a Great Benefit
    To address the risk of losing more tributes, former Congressman Jim 
Rogan introduced House Concurrent Resolution 345 on June 6, 2000. The 
resolution expressed the sense of the Congress regarding the need for 
cataloging and maintaining public memorials commemorating military 
conflicts of the United States and the service of individuals in the 
Armed Forces. In addition to Congressman Rogan, 27 Members of Congress 
cosponsored the resolution (see attached list). Among those cosponsors 
were Chairman Elton Gallegly, Chairman Ken Calvert, Chairman Richard 
Pombo, and Chairman George Radanovich, all current members of the House 
Committee on Resources.
    On July 26, 2000, the Committee on Resources met to consider the 
bill. No amendments were offered, and the bill was ordered favorably 
reported to the House of Representatives by unanimous consent.
    On September 19, 2000, the House of Representatives passed the 
resolution by voice vote on the Suspension Calendar. During its 
consideration, now-Chairman of the Committee on Resources Jim Hansen 
stated, ``Thousands of public memorials dealing with the United States' 
involvement in military conflicts exist throughout the world. However, 
there is no index or record as to their location nor is there a 
cataloged assessment as to their condition. Unfortunately, many of 
these memorials suffer from neglect, disrepair or have been relocated 
or stored in facilities where they are not accessible to the public.'' 
He concluded his remarks by urging other Members of the House of 
Representatives to support the resolution.
    Rather than independent consideration by the Senate, the Resolution 
was included in Senate Majority Leader Tom Daschle's S. 964, the 
Cheyenne River Sioux Tribe Equitable Compensation Act. S. 964 became 
Public Law 106-511 (excerpt attached).
    Under current law, many branches of the Federal government catalog, 
monitor, and maintain federally funded memorials to the service of our 
Armed Forces. For example, the Department of the Interior is 
responsible for cataloging, monitoring, and maintaining federally 
funded memorials. The Department does not keep track of non-federally 
funded tributes. However, the same resources currently deployed to 
catalog Federal memorials could be used to catalog non-federal 
tributes. Additionally, the Department of Veterans Affairs is 
responsible for cataloging, monitoring, and maintaining memorials 
within the National Cemetery Administration and throughout the DVA. It 
does not keep track of non-federally funded tributes.
    H.R. 2748, if enacted into law, would coordinate these disparate 
efforts in one program and collect all of the information in one 
location so it is easy for the public to access. The responsible 
Federal agency would work with community groups and other Federal 
agencies to collect data on the nation's tributes to service in the 
Armed Forces. The data would be collected, verified, and make available 
on the Internet so veterans , students, and anyone else interested 
could access it at their convenience.
    The Congressional Budget Office, in scoring House Concurrent 
Resolution 345, estimated the cost of the program to be $1 million per 
year. This funding would be used to establish the database and Web site 
and pay the researchers collecting and verifying the data.
    H.R. 2748, if enacted into law, would bridge the divide between 
what the Federal government currently does and community groups, like 
RVETS, have been doing. It would create a public-private partnership 
and establish a central point around which those Americans interested 
in preserving our memorials could rally. I envision the Department of 
the Interior working with the Department of Veterans Affairs, the 
Library of Congress, the American Battle Monuments Commission, and any 
other Federal agency that had information and was willing to help. 
Veterans' organizations like mine would work in concert with the 
Federal government and would help to create the database. And in the 
end, the product is something that we all can be proud of.

Benefits of H.R. 2748 The benefits of H.R. 2748 to the nation are many 
        and far-reaching. It will:
    <bullet> Honor the Armed Forces: By creating a comprehensive 
catalog of tributes to patriotism, H.R. 2748 will demonstrate to 
America's Armed Forces and veterans that their sacrifices are 
appreciated and remembered.
    <bullet> Help to Educate America's Children: High school students 
are now studying U.S. history without the benefit of first-hand 
accounts from veterans. H.R. 2748 will provide students throughout the 
U.S. and around the world with access to the stories behind the 
tributes. RVETS has already received inquiries from colleges and 
universities including the University of Pisa, Italy. An Italian 
student was doing his Masters dissertation on United States wars and 
was provided data on specific battle monuments.
    <bullet> Promote Patriotism: H.R. 2748 will increase awareness in 
our youth to the sacrifices that have been made for the liberties that 
we all enjoy. This will be accomplished in a proactive manner by 
distributing to every school district a copy of the stories of their 
local hometown heroes of war. This information can be used in history 
and government classes. RVETS has already begun to perform this 
service, and it has worked successfully in concert with the ``Veterans 
in the Classroom'' program.
    <bullet> Aid in Chronicling Our History: H.R. 2748 will provide a 
framework that will promote cooperation between public and private 
efforts. RVETS has established a working relationship with the Library 
of Congress to share information. The LOC is currently conducting a 
program of video interviews with World War I veterans to create a video 
history of World War I. We feel a sense of urgency because our veterans 
of war are now dying at a rate of more than one thousand a day. Their 
stories of courage, commitment, and of patriotism are dying with them.
    <bullet> Facilitate Genealogical Research: H.R. 2748 will help 
families to teach their younger members about their unique history. 
RVETS intends to record every name on every memorial in America and 
include that information in the database. That number will be enormous, 
but the benefits will be equally significant. People will be able to 
input their family surname or ancestor and immediately find the 
locations of every tribute in America that bears that name. Much like 
the family who made the pilgrimage to Hawaii, the database can also 
satisfy families' needs for resolution and closure for their lost loved 
ones.
    <bullet> Benefit Preservation Efforts: H.R. 2748 intentionally 
does not authorize the Federal government to maintain America's 
memorials. However, it will provide veterans' organizations and other 
community groups with the tool they need to keep track of memorials so 
they can maintain them at their own expense.
                                 ______
                                 
    Mr. Radanovich. I have got a couple of questions regarding 
this. It seems that the desire to want to create the data base 
and honor America's veterans is something that everybody wants 
to do. The question is who would have the responsibility and 
who would be best suited to make sure that the data base is 
complete and available to everybody.
    Do you have an idea in your mind about how this would work? 
Would it be with the Veterans' Affairs Department? Would it be 
with the Department of the Interior? I kind of envision it much 
like the Office of Historic Places that registers historic 
places across the country, that catalogs and maintains a data 
base to identify those areas. Is it kind of similar to what you 
are thinking about?
    Mr. Rooney. Mr. Chairman, I would be happy to work with the 
Department of the Interior, the Department of Veterans' 
Affairs, or any other Federal agency. I think what is obviously 
needed, as evidenced by the earlier testimony, there is a great 
deal of confusion. One reason why we lose memorials and the 
memories of those people behind the memorials is because no one 
knows where they are at. There is no accessibility to them.
    I can give you example after example of memorials that I 
receive a letter from a person, or an e-mail, and they said 
there is a memorial up the street here and it is falling apart. 
I make a very simple call to the local veterans' organization 
in their city and in every case, that is addressed. I suggest 
that their memorial is about to be placed on a national website 
with a picture and they are happy to make sure that their 
memorial is in pristine condition, which is part of our goal.
    Mr. Radanovich. It seems that while we are considering what 
might be the best place to assign the responsibility of 
collecting and maintaining a data base, most of the 
departments, I think, or agencies that are willing to do it are 
willing to do it as long as they have the funding in order to 
do it. So often, we give in situations like these the 
responsibilities without the funding.
    Do you have an idea of the cost of, I think, perfecting the 
data base, you know, getting everything down and then 
maintaining it? Is there any idea of the cost in your own mind?
    Mr. Rooney. Our early estimates were over an 18-month 
period that we could establish the data base, the 
infrastructure, and deliver 1,000 memorials. I want to remind 
the Committee that we are not talking about the address and a 
photograph, but most especially the stories of the heroes 
behind those memorials. We need to send verifiers and 
researchers out into the field. And after the initial 1,000 is 
established, then I think it was the Congressional Budget 
Committee that suggested a $1 million a year ongoing cost until 
the data base is complete, and after that, it is just a matter 
of maintaining the site.
    Mr. Radanovich. So $100 million a year until the 
establishment of it.
    Mr. Rooney. One million.
    Mr. Radanovich. One million, OK. I am glad I heard that 
correctly this time.
    [Laughter.]
    Mr. Radanovich. And then much less to maintain it after it 
is established?
    Mr. Rooney. Yes, sir.
    Mr. Radanovich. Very good. My question regarding the 
schools' funding in Yosemite and Bass Lake, well, actually, 
Wawona inside Yosemite National Park, to Mr. Stauffer and Mr. 
Kelly, both of you representing different school districts, how 
are the kids that are educated inside Yosemite at both of those 
schools at a disadvantage to other children that are educated 
in, say, down in Mariposa, closer to the district where they 
have larger schools, or the same in Madera County? How are the 
kids in Yosemite at a disadvantage as compared to other 
children in the school districts?
    Mr. Kelly. I can speak on behalf of Mariposa County. In El 
Portal and in Yosemite Valley School, we certainly have some 
advantages that others do not. I mean, these kids live right in 
the middle of Yosemite Valley. I mean, what an opportunity to 
live and go to school in that kind of a resource.
    But what is available down in the main district office are 
science programs. There is band. We are getting band now again 
because the road is open. They repaired the road, and we get 
band for the whole school for 2 hours a week right now, which 
we are thrilled to have, but we did not have that over the last 
3 years.
    We have kids with special needs, as well, so if we have 
therapists that need to come up, they come up, again, for 1 
day. They will come up for a couple hours a week. Again, they 
use a good part of their teaching time driving to and from the 
school. If the weather is bad, they do not come. If the road is 
closed, they do not come. So it is about building those 
equities back up.
    Mr. Stauffer. It is very much the same for Wawona School. 
For an example, the special ed students at Wawona School, right 
now, there is only one. They get service 1 day a week, where 
the other schools in the Oakhurst area get service every day. 
Michelle, Mrs. Horner, relies greatly on volunteers, but they 
are not always there to help.
    So it is the service issue. We have no extra programs for 
reading remediation, science, foreign language, those kinds of 
things that are available at our other sites, and it is that 
travel distance problem, as well. When you are servicing a 
special needs student, if you have one, I mean, it is extremely 
expensive to send somebody up from the district office and 
drive back again. It is the drive time problem.
    Mr. Radanovich. One of the things that always upset me when 
I was growing up is that though your schools did get to break 
on Wednesday afternoon and go skiing in Badger--
    Mr. Kelly. We still do that.
    Mr. Radanovich. --it upsets me very much that I never had 
that opportunity.
    [Laughter.]
    Mr. Radanovich. But nothing compared to special education 
needs and the arts, especially.
    What kind of alternative funding sources do you have at 
your disposal? I mean, there are not a lot of alternatives out 
there, but if you have them, if you could explain them to me, I 
would like to know what they are.
    Mr. Kelly. Well, for example, on the Yosemite Valley 
School, the concessionaire is very participatory in the 
education in El Portal and in the Valley. We donate cash to 
both organizations, the parent-teacher groups. We also do 
provide that transportation to Badger Pass for that Wednesday 
afternoon ski, but we also give them a certain allotted time, 
also, for use of our buses on other school transportation 
issues. So it, in total, sums to about $25,000 that the company 
gives to the two schools.
    In addition, our parent-teacher group in the school, we 
raise about $15,000 to $20,000 a year, also, with fundraisers, 
bake sales. We do all sorts of things. And with that money, we 
just hired a local artist who is teaching an art program in the 
school. Again, those extra activities that we are not afforded 
by living in a park, we raise money to provide those 
activities.
    Mr. Stauffer. And again, it is basically the same at 
Wawona. Our teaching principal does fundraisers. They have bake 
sales. They have auctions. They have all sorts of participation 
from the communities. And, as well, the concessionaire, I 
believe, helps with the transportation for the ski program. 
Other than that, it is very difficult to find outside funding 
sources to supplement the--
    Mr. Radanovich. To pick up any difference?
    Mr. Stauffer. Right. And again, we are running at a 
$100,000 deficit.
    Mr. Radanovich. Mrs. Christensen?
    Mrs. Christensen. Mr. Kelly and Mr. Stauffer, from your 
testimony, I have a better appreciation of the difficulties 
that you have. Although there is some question on where funding 
should come from and so forth, it is clear that the schools do 
need some assistance and, of course, the children should be 
entitled to the best education that can be provided for them. I 
do not have a question for you particularly.
    I did have some questions for Mr. Rooney, just so that I 
understand. You catalogued more than 8,600 tributes. There are 
more? It is anticipated that there would be more that still 
need to be cataloged?
    Mr. Rooney. Oh, by all means.
    Mrs. Christensen. I am sorry?
    Mr. Rooney. There are probably many more memorials out 
there.
    Mrs. Christensen. And you are asking not just that they be 
catalogued, but that the story be--to me, that was not clear in 
the bill, but that the story behind each person, each battle, 
whatever the memorial is also needs to be researched?
    Mr. Rooney. I teach high school science in the Los Angeles 
Unified School District and so I see the role models that our 
children select and Henry Johnson has not been selected even 
once as a role model. There are virtually tens of thousands of 
stories of commitment and bravery and courage and standing 
against insurmountable odds. Those are the stories that I 
propose to tell.
    A large part of what we intend to do is we intend to make 
available every story to every school district in America so 
those teachers of history and government will have, as a 
teaching aid, they will have the story of the local hometown 
hero of liberty. We think that will be a great benefit to the 
kids to encourage them to have a greater sense of history, a 
greater sense of patriotism, to know.
    Like we just lost up in Frasier Park, which is near my 
home, we just lost one of our boys in Afghanistan. The kids in 
that high school are doing several tributes. That high school, 
those kids are inspired today because of the sacrifice that 
that young man made. We would suggest that virtually every 
school in America has such a story. We want to tell those 
stories to those children.
    Mrs. Christensen. And you do not have a particular 
preference as to who does it? You do not see this as a 
Veterans' Administration responsibility? It could be either, as 
far as you are concerned?
    Mr. Rooney. Oh, absolutely. Absolutely. The National Park 
Service currently has just 28 veterans' memorials of their 
many, many memorials that they have oversight over. It seemed 
to us like a logical extension of their current data base.
    Mrs. Christensen. We will try to iron it out, because it is 
a worthwhile project and something that we want to support, so 
I am willing to work with the Chair and you and the Park 
Service and the Veterans' Administration to figure out who is 
going to get it done. There is funding provided for it, Mr. 
Chairman, so I look forward to working with you on it.
    Mr. Radanovich. I cannot imagine any, whether you go to the 
Department of Interior or Veterans' Affairs, would not mind 
having it as long as they had the money, and I think that is 
what we need to make sure happens.
    Thank you very much. I do not think that we have any other 
questions today of our panel. I want to thank you all very much 
for taking the effort to come out here to testify.
    With that ends this hearing. Thank you very much.
    [Whereupon, at 12:12 p.m., the Subcommittee was adjourned.]
    [A letter submitted for the record follows:]

   DEPARTMENT OF VETERANS AFFAIRS - NATIONAL CEMETERY ADMINISTRATION
                          WASHINGTON DC 20420

The Honorable George Radanovich, Chairman
Subcommittee on National Parks,
    Recreation and Public Lands
Washington, DC 20515-6207

Dear Mr. Chairman:
    Thank you for the opportunity to testify before your Subcommittee 
regarding H.R. 2748, the ``National War Permanent Tribute Historical 
Database Act.'' As I stated in my testimony, the Department of Veterans 
Affairs (VA) believes this legislation, as currently drafted, would 
expand VA's mission beyond our primary mission-to meet the medical, 
benefits, and burial needs of our Nation's veterans. We also believe 
that the creation, oversight, and management of a database of all 
American war memorials would exceed the current capabilities of VA. We 
would also like to point out that the bill sponsor, Representative 
David Dreier, testified that the authority and responsibility for the 
database should not be given to the Secretary of Veterans Affairs.
    During the hearing, you asked how many memorials fall under VA's 
jurisdiction and whether or not information on these memorials is 
accessible to the public through VA's Internet website. In summer 2001, 
the National Cemetery Administration embarked on a project to compile a 
comprehensive list of war memorials that are located on VA property. 
The primary purpose of VA's inventory is for maintenance and property 
management, not public education. We estimate that VA manages 
approximately 800 memorials and monuments, the majority of which are 
located at VA national cemeteries. Currently, however, VA has 
documented basic information on only 177 of these memorials. This 
information is accessible to the public through VA's website at 
www.va.gov/facmgt/historic/ (select ``Inventory of VA's Historic 
Properties'' then ``Monuments and Memorials'').
    VA is unable to provide an accurate estimate of the total number of 
war memorials that exist beyond our jurisdiction because the number of 
war memorials is so vast. Permanent veteran and war-related memorials 
are found in countless locations across the national landscape. They 
are located in urban parks and small-town centers, private and public 
cemeteries, courthouse lawns and school grounds, adjacent to roads and 
highways, on post office walls, at veterans' institutions, armories, 
and many more settings.
    As I stated in my testimony, VA has identified several entities 
that have developed databases that capture information on war 
memorials. Because these databases were developed independently, it is 
not known how much of their content overlaps. Each inventory was 
apparently developed using different methodologies and criteria, and 
was created for different purposes.
    If you or other Subcommittee members have any additional questions, 
please have a member of your staff contact Mr. Christopher Allen at 
(202) 273-9423. Thank you, again, for allowing me the opportunity to 
express VA's position on this legislation.

Sincerely,

Vincent L. Barile
Deputy Under Secretary for Management

cc: The Honorable Donna M. Christiansen, Ranking Member


</pre></body></html>
